<html>
<title> - NEXT STEPS FOR K-12 EDUCATION: UPHOLDING THE LETTER AND INTENT OF THE EVERY STUDENT SUCCEEDS ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     NEXT STEPS FOR K-12 EDUCATION:
                    UPHOLDING THE LETTER AND INTENT
                          OF THE EVERY STUDENT
                              SUCCEEDS ACT

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 25, 2016

                               __________

                           Serial No. 114-40

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                               ____________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
98-732 PDF                   WASHINGTON : 2016                     
              
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>  
              
                
                
                
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 25, 2016................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................    01
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    King, John B., Hon., Acting Secretary, U.S. Department of 
      Education..................................................     7
        Prepared statement of....................................    10

Additional Submissions:
    Mr. Scott:
        Letter dated February 25, 2016 from Dignity In Schools...    58
    Thompson, Hon. Glenn, a Representative in Congress from the 
      state of Pennsylvania:
        Letter dated February 25, 2016 from National School 
          Boards Association (NSBA)..............................    61
    Wilson, Hon. Joe, a Representative in Congress from the state 
      of South Carolina:
        Prepared statement of....................................    70
    Questions submitted for the record by:
        Chairman Kline...........................................    74
        Mr. Thompson.............................................    77
        Messer, Hon. Luke, a Representative in Congress from the 
          state of Indiana.......................................    77
    Acting Secretary King, response to questions submitted for 
      the record.................................................    79

 
                     NEXT STEPS FOR K-12 EDUCATION:
                    UPHOLDING THE LETTER AND INTENT
                   OF THE EVERY STUDENT SUCCEEDS ACT

                              ----------                              


                       Thursday, February 25, 2016

                        House of Representatives

                Committee on Education and the Workforce

                            Washington, D.C.


    The committee met, pursuant to call, at 10:00 a.m., in Room 
2175 Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Wilson of South Carolina, 
Foxx, Roe, Thompson, Walberg, Guthrie, Rokita, Barletta, 
Messer, Byrne, Carter, Bishop, Grothman, Curbelo, Stefanik, 
Allen, Scott, Hinojosa, Davis, Courtney, Fudge, Polis, Wilson 
of Florida, Bonamici, Pocan, Takano, Clark, Adams, and 
DeSaulnier.
    Staff Present: Janelle Gardner, Coalitions and Members 
Services Coordinator; Kathlyn Ehl, Professional Staff Member; 
Tyler Hernandez, Press Secretary; Amy Raaf Jones, Director of 
Education and Human Resources Policy; Nancy Locke, Chief Clerk; 
Dominique McKay, Deputy Press Secretary; Brian Newell, 
Communications Director; Krisann Pearce, General Counsel; 
Lauren Reddington, Deputy Press Secretary; Alex Ricci, 
Legislative Assistant; Mandy Schaumburg, Education Deputy 
Director and Senior Counsel; Alissa Strawcutter, Deputy Clerk; 
Juliane Sullivan, Staff Director; Leslie Tatum, Professional 
Staff Member; Brad Thomas, Senior Education Policy Advisor; 
Sheariah Yousefi, Legislative Assistant; Tylease Alli, Minority 
Clerk/Intern and Fellow Coordinator; Austin Barbera, Minority 
Staff Assistant; Jacque Chevalier, Minority Senior Education 
Policy Advisor; Denise Forte, Minority Staff Director; Brian 
Kennedy, Minority General Counsel; Saloni Sharma, Minority 
Press Assistant; Michael Taylor, Minority Education Policy 
Fellow; and Arika Trim, Minority Press Secretary.
    Chairman Kline. A quorum being present, the
    Committee on Education and the Workforce will come to 
order.
    Good morning, welcome back.
    Mr. King. Thank you very much.
    Chairman Kline. We really appreciate the opportunity to 
have you with us twice in one week. I know that is unusual. 
Today, we are going to discuss the steps the Department of 
Education is taking and will be taking to implement the Every 
Student Succeeds Act.
    Replacing No Child Left Behind was a significant 
achievement that was desperately needed and long overdue. The 
law represented the largest expansion of Federal control over 
K-12 schools, and it was based on the flawed premise that 
Washington knows best what students need in the classroom.
    The Federal Government imposed rigid rules and punitive 
actions on States and schools in areas vital to a child's 
education, like which teachers to hire and fire, how to gauge 
school performance, and how to fix underperforming schools.
    It did not take long before State and local leaders were 
raising concerns that this top-down approach would not work. 
Their concerns were affirmed year after year as we experienced 
little, if any, improvement in graduation rates, proficiency in 
reading and math, and the achievement gaps separating poor and 
minority students from their peers. Frustration among parents 
and teachers went up, while student achievement remained 
largely flat. Despite the good intentions behind the law, and 
they were good intentions, millions of children were left 
behind.
    To make matters worse, the administration spent years 
pushing a convoluted waiver scheme, which doubled down on the 
false hope that Washington could fix the problems in our 
schools. States and schools were subjected to even more Federal 
requirements in areas like standards and teacher evaluations. 
They were forced to choose between onerous requirements 
prescribed in Federal law and onerous requirements prescribed 
by the Secretary of Education.
    If we learned anything throughout the process to replace No 
Child Left Behind, it is that the American people are tired of 
Washington micromanaging their classrooms. They are desperate 
for a different approach to K-12 education, one that will 
significant reduce the Federal role and restore store and local 
control. This is precisely the approach taken by the Every 
Student Succeeds Act.
    Under the new law, authority over accountability, teacher 
quality, and school improvement is restored to State and local 
leaders. The law also brings new transparency and 
accountability to the department's rulemaking process, ends the 
era of federally mandated high-stakes testing, repeals dozens 
of ineffective programs, and sets the department on the path of 
becoming smaller, not bigger.
    Furthermore, due to the administration's actions in recent 
years and the public outcry that ensued, the Every Student 
Succeeds Act includes unprecedented restrictions on the 
authority of the Secretary of Education, ending the days when 
one individual imposed his or her own agenda on our classrooms.
    The Wall Street Journal described the new law as quote 
``The largest devolution of Federal control to the States in a 
quarter-century,'' close quote.
    A letter written by a coalition of organizations 
representing governors, State lawmakers, teachers, parents, 
principals, and superintendents says ``The Every Student 
Succeeds Act is clear, education decision-making now rests with 
States and districts, and the Federal role is to support and 
inform those decisions.'' They also urge the Department of 
Education to honor congressional intent, which brings us to the 
heart of today's hearing.
    Despite our success in replacing No Child Left Behind, the 
real work to improve K-12 education is just beginning. The 
focus now shifts to leaders in State capitals and local 
communities who will use the tools and authority in the new law 
to build a better education for their children. If they are 
going to succeed, they will need a Department of Education that 
behaves like a partner, not a dictator.
    I have described countless times the shortfalls of No Child 
Left Behind. While it may seem unnecessary at a hearing on the 
future of K-12 education, we need to remember where we have 
been as we look to where we want to go.
    Congress did not want to repeat the mistakes of the past, 
and we certainly did not want a Department of Education that 
would continue to substitute its will for the will of Congress 
and the American people.
    Quite the opposite, we wanted new policies that would 
empower parents, teachers, and State and local education 
leaders. Congress promised to reduce the Federal role and 
restore local control, and we intend to keep our promise.
    That is why we are here today. We want to learn what 
actions the department intends to take to implement the law and 
help ensure the department acts in a manner that strictly 
adheres to the letter and intent of the law.
    Dr. King, this committee stands ready to assist you in that 
effort. The reforms you are now implementing were the result of 
bipartisan consensus, and we will remain actively engaged as 
the department moves forward. There is a lot of work to do, 
especially in every State and school district across the 
country. The department must get this right so every child can 
receive the excellent education they deserve.
    I want to thank you again for being with us today. I know 
it is a very big day for you. Again, I wish you good luck in 
this afternoon's endeavor. I will now recognize Mr. Scott for 
his opening remarks.
    [The The Statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman 
                Committee on Education and the Workforce

    Good morning. Welcome back, Acting Secretary King. Again, we 
appreciate the opportunity to have you with us twice in one week. Today 
we will discuss the steps the Department of Education is taking and 
will be taking to implement the Every Student Succeeds Act.
    Replacing No Child Left Behind was a significant achievement that 
was desperately needed and long overdue. The law represented the 
largest expansion of federal control over K-12 schools, and it was 
based on the flawed premise that Washington knows best what students 
need in the classroom. The federal government imposed rigid rules and 
punitive actions on states and schools in areas vital to a child's 
education, like which teachers to hire and fire, how to gauge school 
performance, and how to fix underperforming schools.
    It didn't take long before state and local leaders were raising 
concerns that this top-down approach wouldn't work. Their concerns were 
affirmed year after year as we experienced little - if any - 
improvement in graduation rates, proficiency in reading and math, and 
the achievement gap separating poor and minority students from their 
peers. Frustration among parents and teachers went up, while student 
achievement remained flat. Despite the good intentions behind the law, 
millions of children were left behind.
    To make matters worse, the administration spent years pushing a 
convoluted waiver scheme, which doubled-down on the false hope that 
Washington could fix the problems in our schools. States and schools 
were subjected to even more federal requirements in areas like 
standards and teacher evaluations. They were forced to choose between 
onerous requirements prescribed in federal law and onerous requirements 
prescribed by the secretary of education.
    If we learned anything throughout process to replace No Child Left 
Behind, it's that the American people are tired of Washington 
micromanaging their classrooms. They are desperate for a different 
approach to K-12 education, one that will significantly reduce the 
federal role and restore state and local control. That is precisely the 
approach taken by the Every Student Succeeds Act.
    Under the new law, authority over accountability, teacher quality, 
and school improvement is restored to state and local leaders. The law 
also brings new transparency and accountability to the department's 
rulemaking process, ends the era of federally-mandated high-stakes 
testing, repeals dozens of ineffective programs, and sets the 
department on the path to becoming smaller, not bigger. Furthermore, 
due to the administration's actions in recent years and the public 
outcry that ensued, the Every Student Succeeds Act includes 
unprecedented restrictions on the authority of the secretary of 
education, ending the days when one individual imposed his or her own 
agenda on our classrooms.
    The Wall Street Journal described the new law as the ``largest 
devolution of federal control to the states in a quarter-century.'' A 
letter written by a coalition of organizations representing governors, 
state lawmakers, teachers, parents, principals, and superintendents 
says, ``[The Every Student Succeeds Act] is clear: Education decision-
making now rests with states and districts, and the federal role is to 
support and inform those decisions.'' They also urge the Department of 
Education to ``honor congressional intent,'' which brings us to the 
heart of today's hearing.
    Despite our success replacing No Child Left Behind, the real work 
to improve K-12 education is just beginning. The focus now shifts to 
leaders in state capitals and local communities who will use the tools 
and authority in the new law to build a better education for their 
children. And if they are going to succeed, they will need a Department 
of Education that behaves like a partner - not dictator.
    I've described countless times the shortfalls of No Child Left 
Behind. While it may seem unnecessary at a hearing on the future of K-
12 education, we need to remember where we have been as we look to 
where we want to go. Congress did not want to repeat the mistakes of 
the past, and we certainly did not want a Department of Education that 
would continue to substitute its will for the will of Congress and the 
American people. Quite the opposite, we wanted new policies that would 
empower parents, teachers, and state and local education leaders. 
Congress promised to reduce the federal role and restore local control, 
and we intend to keep our promise.
    That's why we are here today. We want to learn what actions the 
department intends to take to implement the law and to help ensure the 
department acts in a manner that strictly adheres to the letter and 
intent of the law. Dr. King, this committee stands ready to assist you 
in that effort. The reforms you are now implementing were the result of 
bipartisan consensus, and we will remain actively engaged as the 
department moves forward. There is a lot of work to do, especially in 
every state and school district across the country. The department must 
get this right so every child can receive the excellent education they 
deserve.
    Thank you again for being with us today. I will now recognize 
Ranking Member Scott for his opening remarks.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman. Mr. Chairman, we are 
here today to discuss the critical role of the Department of 
Education in implementing the Every Student Succeeds Act.
    We came together last year to write and pass a strong 
bipartisan law that was worthy of the President's signature. 
This was no small feat, and I am proud of our collective 
effort. I am proud of the role the House Democrats played in 
producing a new K-12 education law that I believe will fulfill 
the ESEA's original promise as a fundamental civil rights law.
    At a time when Congress is often chastised for its 
brokenness and lack of compromise, we clearly accomplished a 
great deal by coming to a consensus to pass this major 
legislation, but passing legislation is only one step.
    We all agree that fulfilling the promise of Every Student 
Succeeds Act rests on successful implementation that honors 
Congress' long-standing commitment and intent of the ESEA; that 
is promoting and protecting the right to an educational 
opportunity for every child, regardless of race, income, 
language status, or disability.
    ESSA repealed the one-size-fits-all approach of No Child 
Left Behind with increased flexibility for States and school 
districts, but with flexibility comes responsibility. States 
will be tasked with developing new multimeasure accountability 
systems, implementing more innovative assessment systems, and 
providing support to school districts to ensure that low 
performing schools improve and meet the needs of all students.
    Getting this right will be hard work. The Federal 
Government has an important role to play in setting high 
expectations both for systems and for the students those 
systems serve. We have to maintain vigorous oversight and 
enforcement to ensure that these expectations are met.
    Simply put, ESSA returns the decision-making to the States 
and local government, but this new law is not a blank check. 
There are Federal guidelines, and States and school districts 
must comply with those guidelines, and an appropriate 
regulatory framework is necessary to ensure that States and 
school districts are empowered to fully comply with the Federal 
law.
    We know from experience that when Federal Government turns 
a blind eye or leaves States without a meaningful regulatory 
framework, it is the most vulnerable children, children of 
color, English learners, students with disabilities, and low-
income students who frequently lose out.
    We experienced this under both Democratic and Republican 
administrations. That is why I am glad to see the Department of 
Education, under the leadership of Acting Secretary King, the 
Department is quickly beginning the process to faithfully 
implement the new law.
    Part of the process as dictated by the Administrative 
Procedures Act will be the Department of Education's 
promulgation of rules and regulations to clarify the language 
and statutory terms and requirements. This congressionally 
dictated responsibility is critical to helping the States and 
districts move forward expeditiously.
    While the statute includes some specific restrictions on 
Federal prescription in limited circumstances, not a single 
provision of the law prevents the Department of Education from 
promulgating regulations, including important areas like 
assessments, accountability, and interventions.
    Now Secretary King is not the only one with important work 
to do. As we move forward, State chiefs, State legislatures, 
and school districts must work collaboratively with all the 
stakeholders to ensure that the voices of parents, teachers, 
students, and civil rights communities are heard in State 
capitals and school board meetings across the country.
    I understand that over 370 organizations and individuals 
have already provided recommendations to the department 
regarding the regulatory process. In my own reading of the 
public comments, I saw many individuals and groups requesting 
additional regulatory clarity, and this includes the 
Secretary's responsibility to define vague terms, set 
appropriate parameters, and providing options to fulfill the 
new legal requirements.
    In addition, the State and local leaders will need to rise 
to the occasion and recognize their important responsibility to 
fight for strong student focused policies.
    I look forward to hearing from the Acting Secretary today 
and at his confirmation hearing this afternoon, so I hope we 
can remove the ``Acting'' part of his title very soon. We're 
look forward to hearing his testimony about what we can do to 
faithfully implement the law in a way that honors Congress' 
intent to protect the civil rights of all students.
    Thank you, Mr. Chairman.
    [The Statement of Ranking Member Scott follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Mr. Chairman, we are here today to discuss the critical role of the 
Department of Education in the implementation of the Every Student 
Succeeds Act.
    Early last year, this committee's process for reauthorization of 
the Elementary and Secondary Education act started as partisan and 
ideological. We marked up and passed a bill that the White House, House 
Democrats, and the education and civil rights communities resoundingly 
rejected.
    But ultimately, we came together to write and pass a strong 
bipartisan law that was worthy of the President's signature. This was 
no small feat, and I am proud of our collective effort. I am proud of 
the role House Democrats played in producing a new K-12 education law 
that I believe will fulfill the ESEA's promise as a fundamental civil 
rights law.
    At a time when Congress is often chastised for its brokenness and 
lack of compromise, we clearly accomplished a great deal by coming to 
consensus to pass this major legislation.
    But passing legislation is only one step of many. We all agree that 
the fulfilling the promise of the Every Student Succeeds Act rests in 
successful implementation that honors Congress' longstanding commitment 
and intent of the ESEA: promoting and protecting the right to 
educational opportunity for every child, regardless of race, income, 
language status, or disability.
    ESSA repealed the one-size-fits-all approach of No Child Left 
Behind with increased flexibility for states and school districts. But, 
with flexibility comes responsibility. States will be tasked with 
developing new multi-measure accountability systems, implementing more 
innovative assessment systems, and providing support to school 
districts to ensure that low-performing schools improve and meet the 
needs of all students.
    Getting this right is hard work, and the federal government has an 
important role to play in setting high expectations - both for systems 
and for the students those systems serve - and maintaining vigorous 
oversight and enforcement to ensure those expectations matter.
    Simply put, while the ESSA returns much decision-making to the 
state and local level, this new law is not a blank check. There are 
federal guardrails with which States and school districts must comply.
    Democrats fought for those provisions because we know from 
experience that when the federal government turns a blind eye or leaves 
states without a meaningful regulatory framework, it is the most 
vulnerable children - children of color, English learners, students 
with disabilities, and low-income children - that lose out. We've 
experienced this under both Democratic and Republican administrations.
    That's why I am glad that the Department of Education, under the 
leadership of Acting Secretary King, quickly began the process to 
faithfully implement this new law. And part of that process, as 
dictated in the Administrative Procedures Act, will be the Department 
of Education's promulgation of rules and regulations to clarify vague 
statutory terms and requirements. This congressionally-dictated 
responsibility is critical for helping states and school districts move 
forward expeditiously.
    Not a single provision in the Every Student Succeeds Act prevents 
the Department of Education from promulgating regulations, including in 
important areas like assessments, accountability, and interventions.
    Let me be clear: House Democrats would never have supported, and 
the President of the United States would have never signed, a law that 
revoked rulemaking authority or set a dangerous precedent when it comes 
to the federal government's role in protecting the civil rights of all 
students.
    Now, Acting Secretary King is not the only one with important work 
to do. As the process moves forward, state chiefs, state legislatures, 
and school district leaders must work collaboratively with all 
stakeholders to ensure that the voices of parents, teachers, students, 
and the civil rights community are heard in state capitols and school 
board meetings across the country.
    I am pleased that 370 organizations and individuals have already 
provided recommendations to the Department of Education regarding the 
regulatory process. In my own reading of the public comments, I saw 
many individuals and groups requesting additional regulatory clarity. 
This includes defining vague terms, setting parameters, and providing 
options to fulfill new legal requirements. In addition, state and local 
leaders will need to rise to the occasion and recognize their important 
responsibility to fight for strong student-focused policies.
    I look forward to hearing from Acting Secretary King about the work 
he is doing over the course of this year to faithfully implement this 
law in a way that honors Congress' intent to protect the civil rights 
of all students. Thank you.
                                 ______
                                 
    Chairman Kline. I thank the gentleman. Pursuant to 
Committee Rule 7(c), all members will be permitted to submit 
written statements to be included in the permanent hearing 
record, and without objection, the hearing record will remain 
open for 14 days to allow such statements and other extraneous 
material referenced during the hearing to be submitted for the 
official hearing record.
    Normally at this time I would introduce our witness, but he 
should be familiar with everybody here, since he was here 
yesterday. I do have to ask you to stand and raise your right 
hand, please.
    Do you solemnly swear that the testimony you are about to 
give will be the truth, the whole truth and nothing but the 
truth?
    Mr. King. I do.
    Chairman Kline. Let the record reflect Dr. King answered in 
the affirmative again. I think since it has been less than 24 
hours since you were here, I probably will not need to explain 
the lighting system again. It has not changed overnight. It is 
still pretty much like it was yesterday.
    With that understanding, sir, you are recognized.

TESTIMONY OF JOHN B. KING, ACTING SECRETARY, U.S. DEPARTMENT OF 
                           EDUCATION

    Mr. King. Thank you very much. Chairman Kline, Ranking 
Member Scott, and members of the committee, thank you for 
inviting me to speak about how the Department of Education 
intends to implement the Every Student Succeeds Act. I commend 
Congress for passing this law with strong bipartisan support.
    The passage of this law is a major accomplishment and the 
beginning of the road as we build on efforts to expand 
educational excellence and equity in partnership with States, 
districts, communities, and educators.
    ESSA presents us with a moment of both opportunity and 
moral responsibility. The new law reauthorizes the original 
Elementary and Secondary Education Act of 1965, which was a 
civil rights law that must be viewed in the context of the 
Civil Rights Act of 1964 and the Voting Rights Act of 1965.
    Responsibility to ensure that implementation of the new law 
lives up to its civil rights heritage rests with leaders in 
States, districts, and with all of us.
    ESSA advances equity by upholding critical protections and 
maintaining dedicated resources for America's most 
disadvantaged students. Importantly, the law maintains 
expectations that action will be taken to improve opportunities 
for students in schools that chronically under perform, that do 
not improve low graduation rates, and that do not ensure 
progress for all student groups.
    The new law also embodies much of what the Obama 
administration has supported over the last seven years. For the 
first time, ESSA enshrines in law high-stakes State chosen 
learning standards, so that all students are prepared for 
college and careers. The law supports local innovation and 
builds on this administration's historic investments in quality 
preschool.
    ESSA also requires that information on student progress is 
shared through annual State-wide assessments, and the law 
supports State efforts to audit and streamline assessments so 
that all State and local tests are high quality and worth 
taking.
    Importantly, ESSA builds on work already underway to raise 
expectations for students and established locally tailored 
systems for school improvement in States. The law rightly 
shifts responsibility for developing strategies to support the 
highest needs students and schools to State and local decision-
makers, and away from the one-size-fits-all mandates of No 
Child Left Behind; it creates opportunities for States to 
reclaim the goal of a rigorous, well-rounded education for 
every child.
    There also is a continued role in ESSA for the Federal 
Government to construct guardrails to protect our children's 
civil rights. I and everyone at the Department of Education 
take that responsibility very seriously.
    ESSA is a big and complex law with new pieces related to 
data reporting, accountability, support systems, programs, and 
authorities. At the Federal level, our role is to support 
States and districts, improve opportunities for students, 
investing in research, scaling what works, ensuring 
transparency, and providing guardrails to ensure educational 
equity.
    Ultimately, we all want quality implementation of the law 
that supports States, districts, and schools in helping every 
student to succeed. We all want to build on the progress 
educators and students have made in recent years; demonstrated 
through our Nation's record high of high school graduation 
rates, dropout rates at historic lows, and our largest and most 
diverse esclass graduating from college.
    We all want the story of education in America to be written 
by these and even more wins for our kids.
    ESSA implementation will require an incredible amount of 
work. The department has heard from stakeholders about where 
guidance or technical assistance is most needed. We sought 
input on areas in need of regulation, received hundreds of 
comments via our notice in the Federal Register, and held 
public meetings.
    We are still early in the process but there is urgency in 
the work to support States, districts, and educators. The 
department will engage in negotiated rulemaking on assessments 
and the law's requirement that Federal funds be used to 
supplement not supplant local investments in education.
    Sessions will begin in late March, and will be open to the 
public. As we continue to meet with stakeholders and determine 
regulations and guidance requiring updates, we look forward to 
a robust discussion of the new law.
    Education is the path to equality and opportunity that is 
at the heart of the American dream, and together we can assure 
the dream is within reach for every child.
    Thank you. I am glad to take your questions.
    [The statement of Mr. King follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you, Dr. King. It is two days in a 
row you have finished in less than the allotted time. That is 
probably unheard of. We are so very glad to see that.
    I want to take a minute or two here to discuss 
congressional intent, and I got some notes in front of me 
because I want to be precise about this.
    It is not so much congressional intent as it is the 
Department's plans with respect to congressional intent that I 
want to get at. As I stated in my opening remarks, there is a 
very clear purpose behind the Every Student Succeeds Act. We 
all know we tried a top-down approach to K-12 education for 
years and it did not work, made matters worse in my opinion.
    This administration spent a lot of time and energy 
dictating policy through conditional temporary waivers. I 
cannot tell you how many times I had a discussion with 
Secretary Duncan about the nature of those.
    As it turns out, no one believed the status quo was 
working, and so Republicans and Democrats came together, House 
and Senate and administration, to pursue a fundamentally 
different approach. The basic intent behind that new approach 
is to reduce the Federal role and restore State and local 
control.
    In working with an experienced and nonpartisan legislative 
counsel's office, we made the language in the law as clear as 
possible. For example, Section 1111 of the law protects the 
right of States to set their own academic standards. However, 
because of the department's meddling in Common Core, the law 
also includes Section 8036. This section entitles State control 
over standards, reaffirms the right of States' withdrawal from 
Common Core or revise their standards as they determine 
necessary without fear of Federal interference.
    We understand implementing new law is complicated business, 
and there will be areas with questions and uncertainty, but 
there should never be any question as to what Congress intended 
when it wrote the law.
    Again, the State and Local ESSA Implementation Network 
recently wrote ``ESSA is clear, education decision-making now 
rests with States and districts and the Federal role is to 
support and inform those decisions.'' In fact, I think it is 
clear that any honest observer would reach the same conclusion.
    Yet it appears for some that may not be the case. In an 
interview with POLITICO Pro last December, then Secretary 
Duncan was asked about provisions of the law narrowing the 
Secretary's authority, and this is part of the Secretary's 
response:
    He said ``And the final thing is we have every ability to 
implement, to regulate the law. Philosophically, I agree with a 
bunch of the stuff, and candidly, our lawyers are much smarter 
than many of the folks who were working on this bill. There is 
some face-saving things you give up, some talking points that 
you give up, which we always do because we are focused on 
substance, and we have every ability to implement. That is all 
I have ever wanted.''
    Well, I find those remarks to be troubling and insulting. 
They suggest that even when it is clear to the department what 
the law says and what Congress intended, the department can do 
whatever it wants to, apparently because the department's 
lawyers are better than ours.
    Throughout the process to replace No Child Left Behind, one 
of the leading concerns I heard from colleagues and from many 
of our constituents is that this administration cannot be 
trusted to implement the law, and statements like this from 
Arne Duncan merely reinforce this legitimate concern.
    Dr. King, do you agree with Secretary Duncan's remarks?
    Mr. King. Let me first say that I am deeply committed that 
the implementation of the law respects the ability of States 
and districts to make decisions about education, within the 
parameters of protecting the civil rights of students with the 
goal of equity and excellence for all students.
    I had the opportunity throughout the last year and a half 
since I have been at the department to spend time with staff of 
the committee and of the Senate Committee and with our team at 
the department.
    There are smart lawyers all around, very strong, very 
capable staff on all sides who worked on the development of 
this law, and you can trust that we will abide by the letter of 
the law as we move forward to do regulations, provide guidance 
and technical assistance to States and districts, and our 
intent is to work together with you, and to gather input from 
educators, from parents, and from members of this committee as 
we move forward.
    Chairman Kline. Well, I certainly hope that is the case. 
You are here and you are under oath, as we talked about before, 
and you just said that you intend to follow the letter of the 
law.
    We will, of course, continue our responsibility in 
providing oversight like this hearing and others here in this 
body and in the Senate. You are right, there are good lawyers 
all around, but those good lawyers are supposed to get the 
language right to put the regulations in place that are 
consistent with the letter and intent of the law, not find ways 
around it, which was the implication of Secretary Duncan's 
remarks.
    With that, I will yield back and recognize Mr. Scott for 
his questions.
    Mr. Scott. Thank you, Mr. Chairman. Dr. King, shortly you 
will be nominating negotiators for the process of negotiated 
rulemaking, and in that notice, there is a constituency of 
civil rights listed, which includes students with disabilities 
and English learners.
    In areas of assessment for English language proficiency, 
alternative assessments for students with the most significant 
disabilities, do you recognize that those are actually two 
different concerns and need separate representation on the 
panel; could we commit that when you talk about civil rights 
generally, civil rights will be represented, but also those 
with disabilities, and English learners will be separately 
represented?
    Mr. King. Thanks. You know, I think one of the key things 
for success of implementation of the law will be gathering 
broad input and feedback, and we have already begun that 
process with two public hearings, gathering public comment 
through the Federal Register, and meetings with a variety of 
stakeholder groups, including civil rights groups representing 
concerns of English language learners and students with 
disabilities.
    I will not personally play a role in the selection of the 
negotiators for negotiated rulemaking, but I am confident that 
negotiators who are chosen will represent a diversity of 
interests, including educators and civil rights leaders with 
specific experience with English language learners and students 
with disabilities.
    Mr. Scott. Thank you. In response to the chairman's 
question where we have given much more power to local and State 
agencies, we tell them what needs to be done, but we do not 
tell them how to do it. The ``how to do it'' is within their 
purview.
    How do you maintain the requirements? How do you guarantee 
they will actually succeed in getting the job done if we let 
them decide how they are going to do the assessments? How can 
we guarantee the assessments will be effective in measuring 
achievement, progress, and achievement gaps?
    Mr. King. The key, I think one of the keys of the Every 
Student Succeeds Act is the commitment that States and 
districts will work towards expectations for students that will 
allow them to graduate from high school ready for college and 
career.
    As States build their assessment and accountability 
systems, they should do that work in the spirit of ensuring 
that all students graduate ready. They have to make sure that 
as they do that, they are attentive to issues of equity.
    One of the strengths of the law is preserving the 
disaggregation of data that was required by No Child Left 
Behind, so that we know where there are achievement gaps facing 
African American students, Latino students, English language 
learners, low-income students, and students with disabilities.
    And importantly the law requires not just that there be 
information about those gaps, but thanks to the leadership of 
folks on this committee, it requires that States take action 
when there are achievement gaps, when schools have chronically 
low graduation rates, and when schools are among the lowest 
performing in the State.
    We will take comment from States, districts, and other 
stakeholders to define regulations, guidance, and technical 
assistance to support States in that work, but we believe the 
law is clear that States have a responsibility to work to close 
achievement gaps.
    Mr. Scott. We do not tell them how to do it, that is local 
control. If they are not doing it, how do you guarantee they 
actually get the job done? Can you do that?
    Mr. King. Importantly, the law preserves the role of the 
Federal Government in ensuing that States fulfill their 
responsibilities under the law. Certainly, States will develop 
plans for their implementation of the Every Student Succeeds 
Act. Those plans will need to explain how they will intervene 
when schools are struggling or when subgroups are struggling.
    They will then have to produce evidence of their work to 
implement those plans, evidence of student performance, and to 
demonstrate that where progress is not made, the interventions 
are intensified. Again, their choice of the approach of 
interventions, although clearly there should be evidence-based 
interventions, and the department will take very seriously the 
responsibility of ensuring that States do what the law 
requires.
    Mr. Scott. I think it is important to note that No Child 
Left Behind had a cookie cutter response that sometimes worked 
and sometimes did not. We have let the States and local 
governments decide what needs to be done now, but we need to 
make sure that the job gets done. That is where the department 
comes in, and we are counting on you to fulfill that 
responsibility.
    Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentleman. Mr. Thompson?
    Mr. THOMPSON. Thank you, Chairman. Chairman, thanks for 
this opportunity. This is the first of what I think will 
probably be many opportunities for oversight on what was a good 
bill, a good law.
    Dr. King, thank you again for coming in today. Oversight is 
so important. Just in the past couple of weeks I hosted my own 
educational forum, had a room full of educators, 
administrators, and parents, you know, getting their feedback, 
and encouraging them to give me feedback as this is being 
implemented, so that we can listen to those who this impacts 
most, which is our children. I look forward to continue to do a 
series of those around my district.
    I want to check in on testing with you. During the era of 
No Child Left Behind, the Federal Government primarily measured 
school performance on student test scores. The schools with 
students who underperformed were thrown into the onerous one-
size-fits-all school improvement system.
    As the future of many schools began to hinge on the 
standardized test scores, pressure grew to pile on more tests 
to prepare for the big annual test with practice tests and 
taught to the test.
    Under the flawed law, high-stakes testing created an 
environment of anxiety and teaching to the test became the 
norm. This administration made this dynamic worse by using its 
temporary and conditional waiver scheme to require States to 
tie teacher evaluations to results on those same assessments.
    We know that assessments can play a positive role in 
identifying areas that need improvement, both in a school and 
in a child's personal education. However, the high-stakes 
testing created under No Child Left Behind and the department's 
waiver scheme left no room for State and local leaders to make 
those improvements and cultivate environments conducive to 
learning, which is what our schools should be all about.
    The Every Student Succeeds Act does away with the federally 
mandated high-stakes testing. Under the law, students will be 
assessed in the subjects of reading, math, and science. 
However, States, not the Federal Government, will determine how 
much those testing outcomes will weigh in a school's 
performance evaluation.
    The Every Student Succeeds Act also prohibits the 
department from imposing teacher evaluation systems on States 
and school districts.
    With these changes, the law returns responsibility for 
accountability, school improvement, and teacher evaluation back 
to where it belongs, at the State and local levels.
    Nat Malkus, an education fellow at the American Enterprise 
Institute, recently described the Every Student Succeeds Act as 
a ``Significant sign of a course correction when it comes to 
mandatory testing,'' saying these provisions can help schools 
focus on important aspects of schooling that are not reflected 
on standardized tests.
    With these comments, it is clear Congress has taken a step 
in the right direction. The ESSA also respects the right of 
States to pass laws that would allow parents to opt their 
children out of assessments. The Federal Government should not 
get in the way of States and local leaders as they carefully 
consider the concerns that parents have voiced when it comes to 
testing.
    The specific language addressing States' rights can be 
found in Section 1111 that reads ``Nothing in this paragraph 
shall be construed as preempting a State or local law regarding 
the decision of a parent to not have the parent's child 
participate in the academic assessments under this paragraph.''
    In addition, the ESSA makes an important change to the 
assessment participation rate as it pertains to schools. In the 
No Child Left Behind Act, schools that failed to assess at 
least 95 percent of its students were automatically deemed 
failing. Under the new law, however, States have the sole 
responsibility of determining how the 95 percent participation 
rate factors into a school's evaluation.
    ESSA very clearly gives power back to the States when it 
comes to holding schools accountable for assessment 
participation, and the right of parents to opt their children 
out of those assessments. These provisions will allow States 
and school districts to better identify and support 
underperforming schools and provide more transparency and 
options for parents and their students.
    Dr. King, how would you ensure--how will you ensure that 
the implementation of ESSA protects the authority of States to 
make these decisions without Federal interference?
    Mr. King. Thanks for the question. One of the things that I 
think is an important step forward of the Every Student 
Succeeds Act is as you said, the opportunity to broaden the 
definition of ``educational excellence.'' We have done the No 
Child Left Behind as a teacher, as a principal, as a leader of 
schools, and as a State chief, and understand that one of the 
weaknesses of No Child Left Behind was a narrowing of how we 
think about educational excellence.
    I think the flexibility that States have to design their 
accountability systems gives them room to ask how are students 
doing in science and social studies, are students getting 
access to art and music, are students getting access to 
advanced course work, and are schools helping students develop 
socioemotional skills?
    Are schools helping prepare students to participate in 
civic discourse? Are schools paying attention when kids are 
chronically absent and intervening to make sure that kids are 
in school, so we can ensure that they stay in school through 
high school graduation?
    I think there is tremendous opportunity here. Our role at 
the department will be to create helpful parameters and to 
provide technical assistance. I think as you will hear from 
State chiefs who are part of the oversight process, that State 
chiefs are eager to have this flexibility and to work with 
their stakeholders to broaden the definition of ``educational 
excellence.''
    Chairman Kline. The gentleman's time has expired. Mr. 
Hinojosa?
    Mr. Hinojosa. Dr. King, thank you for joining us today to 
testify before this committee on the implementation of the 
Every Student Succeeds Act, known as ESSA. Thank you, Chairman 
Kline and Ranking Member Scott for holding this important 
hearing.
    Let me begin by saying it seems to me that this hearing is 
just another attempt to erode executive authority at the U.S. 
Department of Education. I have been here 20 years and I have 
seen that we have made some improvement. I do not want to go 
back to what it was like back during the administration of 
Lyndon Baines Johnson when he introduced legislation known as 
the Elementary and Secondary Education Act and the Higher 
Education Act, because it was necessary that the Federal 
Government participate in trying to make education for all 
better.
    I am concerned my colleagues want to use this hearing to 
explain why we should return to full local control. Instead, we 
must use this committee hearing as an opportunity to hear about 
the vitally important Federal role in education.
    To be clear, I strongly believe the Federal Government is 
responsible for providing educational equity and strong 
guardrails to protect the civil rights of all students.
    This includes ensuring that economically disadvantaged 
students, students of color, English language learners, migrant 
students, students with disabilities, and other special 
populations have access to a high quality education, and to 
succeed and graduate from high school ready to go to college.
    President Obama signed the Every Student Succeeds Act on 
December 10, 2015 and has provided us with a clear picture of 
your commitment to implementing that law. This includes 
promulgating the regulations that serve to interpret and 
clarify statutory requirements.
    While ESSA contains limited prohibitions on the Secretary's 
authority to regulate in particular areas, the law leaves 
substantial authority for the Department of Education to 
regulate in broad parameters and define vague statutory terms.
    Under ESSA, States and school districts are tasked with 
increased responsibility. It seems to me they will need 
additional support and oversight from the department in order 
to fulfill the requirements of this new law.
    I would like to ask you a question, Dr. King. In Texas, 
students of color already comprise the majority of the public 
school students. Can you explain the long-standing importance 
of the Federal role in protecting the right to educational 
opportunity for all students, and how does the department's 
plan balance that role with the new flexibilities afforded to 
the States by Congress under ESSA?
    Mr. King. I appreciate that question. I think the measure 
of the success of our implementation of this law will be 
whether or not it advances both equity and excellence. Too 
often, we know in our Nation's history, the interests and needs 
of low-income students have been under attended to. There are 
too many cases in our history where the interest of English 
language learners have been ignored, too many cases in our 
history where African American students and Latino students 
have not had access to the same opportunities.
    We have to view this law as an opportunity to advance 
equity, and I think State chiefs are eager to do that. I know 
Tony Evers, the president of the Board of the Chief State 
School Officers, this year has committed to make this the year 
of equity for the Council of Chief State School Officers.
    Our role at the department will be to set parameters, 
guardrails that ensure that attention is paid to the students 
who are most at risk. We know there are States that have had a 
history of underattending to English learners, for example.
    We will ensure that the regulations and guidance that we 
provide requires attention to the needs of English learners, 
and I think there are some new tools in the Every Student 
Succeeds Act that will be helpful. One of those new tools is 
the focus on schools with graduation rates below 67 percent. We 
know often those are schools serving low-income students.
    Another one of those tools is the disaggregation of data on 
English learners who are also students with disabilities, a 
population whose needs, I think, have been underattended to as 
a country.
    We see the civil rights legacy of the law as a central task 
for the department.
    Mr. Hinojosa. I am an optimist. I think we are going to go 
forward because we signed--the President signed a bill which 
was very bipartisan under the direction of Chairman Kline and 
Bobby Scott, so I think we just need to work like that as we 
try to reauthorize higher education, and we will work with you 
very closely. I yield back.
    Chairman Kline. The gentleman yields back. Mr. Guthrie, you 
are recognized.
    Mr. Guthrie. Thank you, Mr. Chairman. Before I get to my 
question, I want to say I know Secretary Duncan, and when those 
words first came out, I thought maybe they had been taken out 
of context, and they were not, and I was real disappointed.
    I will tell you, those sitting behind Chairman Kline that I 
know and those sitting behind Ranking Member Scott, who I do 
not know as well, but I think I can say without fear of 
contradiction, are extremely smart, successful, talented, and 
they could do a lot of other things in life but they are here 
because they really believe in this process and what is moving 
forward. I am saying all along the wall, like behind Mr. Polis.
    The other thing is you wonder if he is just saying well, 
let's get something done and we can do what we want to do 
because we can figure out how to work the law to get around and 
still do what we want to do.
    I want to be clear on congressional intent. I am going to 
stick to my notes here because I want to be precise. To get to 
my question, the Every Student Succeeds Act is a positive step 
forward in K-12 education. The new law repeals burdensome 
Federal requirements and ensures decisions affecting education 
are made by State and local leaders, not Washington 
bureaucrats.
    We appreciate the work the Department has done in issuing 
initial guidance as States begin the process of transitioning 
to the new law. It has done a good job. We appreciate it.
    States and local leaders have expressed to us they are 
willing and eager to make this transition, so moving forward, 
we want to make sure they have everything they need to do so.
    As the Department of Education issues guidance, we want to 
emphasize that it should be consistent with the letter of the 
law and Congress' intent to give more control of K-12 education 
back to State and local leaders.
    Just a few weeks ago, this committee was able to hear 
testimony from Oklahoma State's superintendent, Joy Hofmeister. 
She echoed this point when she said, and I quote, ``State and 
local education agencies working closely with educators and 
administrators are in the best position to make decisions about 
the policies and practices that will benefit every child, 
especially those most in need. Striking the balance between 
guidance to the States and ensuring that States are not overly 
prescribed is what State leaders need.''
    We in Congress want to be sure the Department understands 
the intent of the law as we go through the guidance and 
regulatory process.
    As you know, the new law includes several provisions to 
guide States as they transition from No Child Left Behind to 
the Every Student Succeeds Act. When it comes to accountability 
systems, which gets to my question, States will continue 
operating under their current systems for the remainder of the 
2015 to 2016 school year, but those accountability systems will 
be suspended after that school year. Through the end of the 
2016-2017 school year, States will continue to implement the 
school interventions they had planned before the Every Student 
Succeeds Act became law.
    New accountability systems and school intervention policies 
developed and adopted by State and local leaders will go into 
effect at the beginning of the 2017-2018 school year.
    My question is with this framework in place, Dr. King, how 
will you ensure that States have the information and 
flexibility they need to adjust to the new law in the coming 
years?
    Mr. King. A guiding principle for us in this process would 
be to gather input from stakeholders and have stakeholders 
input. School districts, superintendents, principals, State 
education agencies, parents, civil rights community, and 
community leaders, have their input guide our process of 
developing regulations, guidance, and technical assistance.
    We have already started that process. The ``Dear 
Colleague'' letters, the three that we have done so far with 
States have been intended to address questions that we have 
been getting from States and to help them think through the 
transition.
    We want to continue in that way to try to be responsive to 
the needs of States and districts. We are beginning the 
negotiated rulemaking process on assessments and accountability 
plans, because those were areas that we saw in the comments we 
have received that needed additional clarity, and that is the 
approach that we will take to all the other areas.
    I am confident that we can work together with States to 
support them. I think State chiefs are eager for the 
flexibility, and many of them have already begun extensive 
stakeholder engagement as they think through their 
accountability plans and their new systems that they will 
implement under ESSA. I am confident that by the summer of 
2017, as we move into the 2017-2018 school year, States will be 
well positioned to move forward on their new plans.
    Mr. Guthrie. Thank you. As I mentioned the previous 
Secretary, I also will say your willingness to come here 2 days 
in a row for two separate meetings to work through these issues 
shows your respect for this process, and it is much 
appreciated. I yield back my time.
    Chairman Kline. The gentleman yields back. Ms. Fudge?
    Ms. Fudge. Thank you very much, Mr. Chairman, and thank you 
again, Dr. King, for being here. Let me just be clear before we 
start. I heard reference twice to a comment by former Secretary 
Duncan, and that maybe some of my colleagues are insulted or 
aggrieved in some way about what he said. Did you write that or 
did you say that?
    Mr. King. No.
    Ms. Fudge. Okay. Just to be clear. We should not hold you 
responsible for something somebody else said.
    First question, Dr. King, an underlying focus on equity has 
remained in each reauthorization of the ESSA. As a sponsor of 
the core act, I have advocated for an accountability model that 
forces districts to review the equitable allocation of 
resources across schools. This includes human resources such as 
counselors, nurses, and other support personnel.
    What type of guidance will you be able to provide to ensure 
that as districts look at resource equity, they do so in a 
comprehensive manner?
    Mr. King. The issue of resource equity, I think, is central 
to the way States and districts can use the Every Student 
Succeeds Act to advance opportunity for students who too often 
have not had those opportunities. There are a couple of key 
potential levers. One is as States develop their accountability 
systems, they will have the opportunity to incorporate issues 
of equitable access to opportunity.
    We know, for example, there are many high schools in this 
country where you cannot take chemistry and physics. If you 
cannot take chemistry and physics, you are unlikely to be 
prepared for success in STEM careers.
    We have many high schools, sometimes high needs urban, 
sometimes high needs rural, that do not offer advanced 
placement courses or international baccalaureate courses, so 
students cannot get that head start on college level work.
    States could incorporate those elements into their 
accountability systems, and we will certainly support States in 
doing that.
    The law also requires transparent reporting on issues of 
resource equity, access to advanced course work, and we want to 
make sure that as States move forward with implementation they 
are attentive to those issues of inequitable access to 
opportunity, and as they intervene in schools that are 
underperforming, one of the things they will need to do is use 
evidence-based interventions to respond to that inequitable 
opportunity.
    Ms. Fudge. Thank you. Dr. King, we hear a lot of talk, 
especially from my colleagues on the other side of the aisle, 
about regulation of being by definition Federal overreach. It 
seems to me that promulgating regulations, issuing guidance, 
and providing ongoing technical assistance are crucial tools 
used by the department that helps States and districts 
implement the law without confusion about what it requires.
    Can you just talk a little bit about that?
    Mr. King. Yes. The regulatory process and the guidance 
process we see as an opportunity to be responsive to States, 
districts, and stakeholders. As we get questions, we try to 
respond to those.
    In the ``Dear Colleague'' letters that we have done so far, 
we have gotten questions about how States should think about 
the fact that many of the programs that were appropriated in 
the 2016 budget were done so under existing structures, not new 
law, so what does that mean for them.
    We have gotten questions around States' obligation to 
provide supplemental education services and make clear that 
they can substitute alternative interventions given the new 
flexibilities under ESSA.
    We have tried to be responsive and our intention is to 
continue to try to be responsive. Regulations often are 
critical to providing clarity on issues that are not clearly 
specified in the law, and guidance we see as an opportunity 
both to provide clarity and to offer examples of best practice.
    Ms. Fudge. It certainly is not your intent to try to run 
local schools?
    Mr. King. Absolutely not. I think we know the best ideas 
are going to come from classrooms, schools, districts, and 
States. We have to make sure that as those ideas are 
implemented it is done in a way that is attentive to issues of 
equity. I think that is our core responsibility.
    Ms. Fudge. You intend to proceed as the law has said, you 
are going to assist, you are not going to try to dictate to 
States what they should do. You are going to provide guidance, 
and that is clearly within the law.
    Mr. King. Exactly right.
    Ms. Fudge. Thank you so much. I yield back, Mr. Chairman.
    Chairman Kline. The gentlelady yields back. Mr. Bryne?
    Mr. Bryne. Thank you, Mr. Chairman, Dr. King. You and I met 
previously. I was a former chancellor of Postsecondary 
Education for the State of Alabama. Previous to that, I was in 
the legislature and served on the Education Policy Committee, 
the Education Budget Committee, and prior to that, I spent 8 
years in the Alabama State School Board.
    I and my colleagues in a bipartisan fashion on the school 
board worked very hard to be the accountability body for the 
State of Alabama. So, I personally feel very strongly about 
that.
    Now, when No Child Left Behind came along in 2001, it tried 
to put a one-size-fits-all mentality on school systems around 
the Nation. Once again, in a bipartisan fashion, we realized 
that did not work, and so this committee and this Congress in a 
bipartisan fashion decided to move back from that.
    The law we passed last year, the Every Student Succeeds 
Act, is very clear, it is very explicit about getting away from 
the one-size-fits-all mentality.
    We have had some testimony recently before this committee, 
as was referenced earlier from the Oklahoma State 
superintendent of education that sort of gives us a good 
example of what States around the United States are intending 
to do to make sure they take their role in accountability very 
seriously.
    Far from getting away from accountability, we believe in 
the law that we actually put accountability where it would have 
the greatest impact, and that is with State and local education 
leaders.
    In some cases, those are State school board members or 
local school board members, and in some cases, it is State 
superintendents of education, local superintendents of 
education. People you know very well, and you know very well 
from your experience that these people are closer to where the 
schools are, closer to where the students are, and also have a 
pretty good handle on what needs to be done to make sure that 
education is getting through to every child. We want every 
child to be successful.
    Now, to protect this State and local authority over their 
accountability systems, the Every Student Succeeds Act included 
a number of protections to ensure the law would be implemented 
correctly.
    For example, the law asks States to evaluate schools based 
on consistent underperformance of any subgroup of students with 
consistent underperformance being ``determined by the State.'' 
The law also prohibits you or any other secretary from 
regulating what ``consistently underperforming'' means.
    Now, I know you did not give the quote we heard earlier 
from your predecessor about the smart lawyers, but the concern 
is there may be some smart lawyers in the Department of 
Education that want to find a way to get around the explicit 
words in this statute. We have seen that with other departments 
of government.
    So, I want to ask you to do today in your words, not your 
predecessor's words, in your words, I want you to assure us 
that the Department of Education will respect the role of State 
and local leaders by following the clear restrictions of the 
Every Student Succeeds Act that it places on the Federal 
Government when it comes to accountability, and in particular, 
in your remarks, I want you to tell us what you will do to 
ensure that States retain the sole right explicitly given to 
them in the statute to determine the meaning of ``consistently 
underperforming.''
    Mr. King. Yes, for us, I think again, careful attention to 
the input that we get from States and districts will drive our 
work on regulations and guidance.
    Joy is a great example. I think Joy shared with the 
committee noting that Oklahoma's approach to accountability 
under the waiver had subgroups together, and she actually 
thought the Every Student Succeeds Act requirement to look at 
each individual subgroup would allow her to make an important 
step forward for equity and excellence in her State.
    Mr. Bryne. Mr. Secretary, what I want to hear is are you 
going to not let your lawyers get you to do something that 
abates the law, will you enforce this law as it is written and 
given the clear intent of the Congress?
    Mr. King. We will certainly ensure that our regulations and 
guidance are consistent with the letter of the law. We are 
committed to that. We are also committed to trying to work with 
States and districts to ensure their approach is consistent 
with the letter of the law.
    Again, I think we have an opportunity--
    Mr. Bryne. Will you respect that the States have the sole 
responsibility to determine what this phrase ``consistently 
underperforming'' means? Will you be sure that the States have 
that authority as is explicitly given to them in the statute?
    Mr. King. We are early in the process on gathering 
comments--
    Mr. Bryne. That is a yes or no question. Will you do that?
    Mr. King. Respectfully, I am not sure that it is because as 
States think about this work of implementing the Every Student 
Succeeds Act, we are getting questions from States, from 
districts, and from other stakeholders about how they move 
forward with some of the definitions in the law, and we will 
work with States on that.
    So, I am committed to working with this committee, 
committed to ensuring that our implementation is consistent 
with the letter of the law, and interested in your feedback, 
but I do not want to get ahead of the negotiating rule makers. 
I do not want to get ahead of the review of comments that we 
are getting from States and districts.
    Chairman Kline. The gentleman's time has expired. Mr. 
Polis?
    Mr. Polis. Thank you, Mr. Acting Secretary, for being here 
today. It really was an enormous achievement for this committee 
and Congress along with you and the executive branch to 
participate in the reauthorization of ESSA last fall.
    As you know, members of this committee and our staff put 
countless hours in the creation of the Every Student Succeeds 
Act, and it is important to all our constituents that it is 
implemented effectively, which is why you are here today.
    Of course, I want to underscore the role of the department 
in the process of implementation. As legislators, we make laws, 
and the department as part of the executive branch, you have 
the responsibility to implement them.
    I want to talk briefly about accountability. ESSA repealed 
the flawed one-size-fits-all accountability system of No Child 
Left Behind, finally, and places responsibility for making 
decisions around accountability to the States.
    While we all agree that ESSA's accountability requirements 
are an improvement over NCLB, we also know that States have a 
historically checkered record of making sure that all 
vulnerable populations are served.
    As we heard recently from the State chief of schools in 
Oklahoma, some States use their waiver authority to develop 
accountability systems that hid the achievement in graduation 
rates of subgroups of students.
    It is very important in implementing the new law that the 
department ensures that the Federal guardrails in ESSA are 
meaningful and prevent those kinds of State systems from 
turning back the clock on educational opportunity for all 
students. That is referenced specifically in the statute, of 
course, around the area of opt outs, in response to Mr. 
Thompson's comments
    While a State is welcome to pass bad laws relating to opt 
outs, we have Section C.4(e) of ESSA that says States must 
assess 95 percent of students. That means ``all'' means 
``all,'' and while it is up to States to determine the 
consequences for failing to assess students, it is the 
department that will provide oversight and enforcement to 
ensure States are assessing all students regardless of the 
State laws are on how opt outs occur.
    At the end of the day, ESSA and ESEA are civil rights' 
laws. I believe it should be implemented in a way that 
maintains that spirit.
    What steps do you plan to take to make sure that ``all'' 
means ``all,'' and that States do not deliberately or 
accidentally hide achievement gaps or subgroup performance?
    Mr. King. I appreciate the question. I take that 
responsibility quite seriously to ensure that ``all'' means 
``all'' and that this implementation of the law advances equity 
and excellence.
    I think we have an opportunity in the regulations and 
guidance that we provide to help create guardrails that will 
ensure that States use their new flexibility around 
accountability and interventions to advance equity.
    For example, as we begin the negotiated rulemaking process 
around assessments, the kinds of questions we have been getting 
have been questions around the participation of students with 
disabilities, the participation of English learners, the 
implementation of computer adaptive assessment, in a way that 
protects equity.
    So, as we move forward with that negotiated rulemaking, a 
central question will be how do we ensure that regulations that 
we do on assessments protect civil rights of students. We will 
take a similar approach to our work on the negotiated 
rulemaking for supplement not supplant, and we continue to 
review comment and feedback from stakeholders to define other 
areas where we need to move forward with regs and guidance.
    Mr. Polis. And while the consequences of meeting the 
requirements are left up to State law, do you feel that you 
have sufficient levers to ensure those consequences are 
meaningful and not meaningless?
    Mr. King. We do. I will say it will require vigilance on 
the part of the department, particularly as States implement 
their first round of interventions and identify whether or not 
those interventions are helping to achieve progress, 
particularly for at-risk subgroups. We are going to have to be 
vigilant to ensure that States continue to move forward to 
shift strategy if a strategy is not working for the highest 
needs students.
    Mr. Polis. Thanks. You know, over testing is a major issue 
we hear about from students, teachers, and school boards. I am 
very pleased that ESSA allows ACT and SAT to meet the Federal 
high school testing requirements. District and State leaders in 
Colorado also support that change.
    We have a lot of questions about implementation. What can I 
tell my constituents about how this new policy will be 
implemented?
    Mr. King. This is one of the areas also that will be 
tackled by the negotiated rulemaking process on assessments. It 
is one that we have gotten a lot of questions on, the 
nationally recognized high school assessments. There are a 
number of questions that will be posed to the negotiators, and 
we will gather--we will use the public comment we have already 
received on this subject to inform that process.
    Mr. Polis. In my last 10 seconds I just want to point out 
that there is a lot of interest in student data privacy, and 
along with Mr. Messer, we look forward to continuing to work 
with the department to ensure that as we take advantage of new 
blended learning and educational technology opportunities that 
the privacy of students is respected as well and in an 
appropriate way. I yield back.
    Chairman Kline. The gentleman yields back. Mr. Curbelo?
    Mr. Curbelo. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here with us today. As we were working 
towards this reauthorization, I collaborated with Chairman 
Kline, Chairman Rokita, and my colleague from Florida, Ms. 
Wilson, to see how we could support English language learners 
through this legislation.
    Under No Child Left Behind, there were very rigid, unfair, 
in my opinion, standards used to evaluate English language 
learners. As you know, I represent Miami, Dade County, South 
Florida, where we have a large ELL population. A lot of these 
kids were being counted out after one year. Their teachers and 
their schools were being punished.
    One of our priorities was to bring some relief not just to 
these students, we want to continue counting them without 
counting them out, but also to the teachers who spent hours and 
hours with these kids, and to the schools who dedicate so many 
resources to support them.
    Can you talk to me a little bit about how the department is 
interpreting our language with regards to English language 
learners, and if relief is coming to these State school 
districts and schools soon?
    Mr. King. This is an extremely important area. I think in 
many ways the fate of our education system is bound up with how 
we serve our highest needs students, and we have a rapidly 
growing population of English learners across the country, and 
we have to do a better job as a country ensuring that English 
learners have the opportunity to get the academic skills that 
they need and also the opportunity to get the language skills 
that they need.
    As we go forward with implementation, we are gathering 
feedback and input from the community of educators who have 
focused on English learners, as well as organizations who have 
advocated for English learner students. Their input will help 
to drive what goes into the regulations and guidance.
    As we go into the negotiated rulemaking process on 
assessments, one of the key issues will be the participation of 
English learners in the assessment system. We look forward to 
the negotiators tackling that issue.
    We think there are some great opportunities in the Every 
Student Succeeds Act. Very quickly, the opportunity to focus on 
growth. One of the weaknesses, I think, of No Child Left Behind 
was the focus exclusively on proficiency.
    We have the opportunity with ESSA implementation for States 
to look at the growth of English learners as part of their 
accountability system. We have the requirement for States to 
look at English language proficiency as part of their systems 
of accountability. We have the requirement for States to focus 
on the needs of English learners who are also students with 
disabilities, a population that has often been underattended 
to. We have the opportunity to focus attention on long-term 
ELLs, students who have been in the schools for a long time but 
still have not acquired the language skills they need.
    I think the law will help focus attention here. We already 
have begun working with States on providing technical 
assistance in this area as they think about how to integrate 
growth into their accountability systems, and certainly look 
forward to working with you on this issue.
    Mr. Curbelo. So, you can assure me today that as a result 
of our reauthorization, you foresee in the immediate future 
more flexibility, more latitude for schools, teachers, and 
districts to work with this unique population?
    Mr. King. Yes, I think States will have good flexibility 
and an opportunity to focus on the needs of English learners 
more intensively than some States have in the past.
    Mr. Curbelo. And can you tell me briefly, since we have a 
little over a minute left, regarding the implementation of the 
Direct Student Services program, which promises to expand 
school choice and again bring more flexibility and options for 
students who have the capacity to excel and to achieve more, 
but who are limited by the schools they are attending?
    Mr. King. Yes, from our perspective, we have long thought 
that school innovation and choice can be powerful levers to 
drive better opportunities for equity and excellence. We do not 
support voucher programs.
    I think that is an area in which I know there is some 
disagreement, even in this room, but we certainly will 
implement the law with respect to the D.C. program, and we will 
certainly implement the opportunities for students in charters 
that are part of the law, and the opportunity for school 
districts to design other versions of Public School Choice 
programs.
    Mr. Curbelo. Thank you, Mr. Secretary. I yield back.
    Chairman Kline. The gentleman yields back. Staying with 
Florida, Ms. Wilson, you are recognized.
    Ms. Wilson. Thank you, Mr. Chair. I welcome you once again, 
Dr. King. I know this is an extremely busy week for you, 
especially today. I appreciate your continued enthusiasm for 
these issues. I also look forward to your successful 
confirmation hearing later today.
    Mr. King. Thanks.
    Ms. Wilson. We know that the Federal role is crucial for 
protecting the interests of all students. Do you agree? Can you 
talk more about the long-standing importance of the Federal 
role in protecting the right to educational opportunities for 
all students?
    How might these resources in Title IV be used to support 
the 59,260 students attending dropout factory high schools in 
Florida, where one-third of students fail to graduate?
    Mr. King. When you think back to 1965 when Lyndon Johnson 
signed the original Elementary and Secondary Education Act, it 
was with the intention that education would be a driver of 
equality, of opportunity in American society. I think as we 
move forward with implementation of ESSA, it has to be done in 
the same spirit as that legacy.
    Title IV creates a number of opportunities. States and 
districts will be able to use resources there for programs that 
are targeted at dropout prevention, at issues of school 
climate, which we know are often drivers of students leaving 
school. States will be able to use Title IV to ensure they are 
integrating the arts, which can be a powerful lever for student 
engagement.
    States will be able to use those Title IV dollars to 
support initiatives to provide advanced course work. We know 
that getting students access to advanced courses in areas of 
interest can be a driver, not only of students staying in 
school and completing high school, but students going on to 
success in college and careers afterwards.
    I think there is tremendous opportunity there. One of the 
challenges will be for highest needs communities. We continue 
to see in too many places that States are underfunding highest 
needs schools. Even as the Federal resources create new 
opportunities, we do worry that we will need a strong 
partnership from States to invest in the highest needs schools.
    Ms. Wilson. Thank you. Just a follow-up to Representative 
Curbelo. We are saying that States should reduce testing, and 
in some way, I do not know what the communication is, but it is 
not the district that has the authority to reduce the testing, 
it is the State that has the authority. Am I correct?
    In Florida, the State legislature has decided against all 
that we tried to put forth for English learners, and also to 
reduce the pipeline to prison because of the extreme emphasis 
on testing. So, I call them ``testing factories'' in Florida.
    How do we go around a State to stop all of this testing, 
even though our Federal bill says they should?
    Mr. King. You know, in the fall, the President announced 
our testing action plan with a concern that a combination of 
State and district decisions, and I think there is some great 
variation across the country, had resulted in some places in 
too many assessments.
    The question is you want good information for teachers and 
parents each year about how students are progressing, but you 
do not want assessments to crowd out good instruction, as you 
know from your experiences as an educator.
    So, we recently issued guidance to States and districts on 
how they might use existing Federal dollars to audit the 
assessments they give, evaluate which ones are useful and 
creating opportunity, and which ones are unnecessary, 
redundant, or of low quality and should be replaced.
    We are seeing, I think, progress across States around this, 
a number of chiefs and our State chief school officers are 
focused on trying to both reduce the number of assessments and 
improve their quality.
    When I was State chief in New York, we had a grant program 
that focused on helping teachers and principals come together 
to look at their assessments and ask are these really the right 
ones, do we really need these, and can they be better, can we 
make them more performance-based, can we make them more 
project-based, can we make the assessment a more logical part 
of the instructional experience that students are having by 
embedding it in the instruction.
    Ms. Wilson. We have to make sure that the department plans 
to honor our congressional intent in ESSA around the 95 percent 
participation rate on assessments. I am sure we have your 
commitment to help us.
    The testing is killing them, especially in Florida. I am 
just speaking of Florida. I do not know about the other States.
    Mr. King. I think we have to get the balance right around 
assessment, and I think it is clear that in the last decade, as 
you look across the country, the balance has not always been 
right. I think we have an opportunity.
    On the President's budget, we proposed an additional $25 
million for the assessment funding that would be targeted to 
work like audits on assessments, so that States like Florida 
and others could evaluate the number of assessments they are 
giving and their quality.
    Again, we want to make sure that parents and teachers have 
good information for every child about how they are progressing 
each year, but we have to do that in a way that is balanced and 
ensures teachers and students are spending their time on 
instruction and the rich learning experiences that are going to 
produce better outcomes.
    Chairman Kline. The gentlelady's time has expired. Mr. 
Barletta?
    Mr. Barletta. Thank you, Mr. Chairman, and thank you, Dr. 
King, for being here today. I am looking forward to working 
with you and your department as we implement the Every Student 
Succeeds Act.
    As you know, the Every Student Succeeds Act reauthorizes 
the 21st Century Community Learning Centers program as a 
separate and directed Federal funding stream under Title IV. 
The original House version of the bill eliminated this 
important program, but as a strong supporter, I worked to 
ensure that funding was restored in the final conference report 
that was signed into law.
    The 21st Century Community Learning Centers program is 
designed to provide Federal funding for the establishment of 
community learning centers that provide academic, artistic, and 
cultural enrichment opportunities for children. Funds are 
directed to students who attend high poverty and low-performing 
schools to provide them with additional services that help both 
students and their families grow both academically and 
socially.
    Importantly to me, this program is the only Federal funding 
source for our Nation's After School programs, which students 
and working families across America rely on each and every day. 
In my district in Pennsylvania, the program provides 49 percent 
of total funding for SHINE, or Schools and Homes in Education, 
a successful after school educational program in Carbon and now 
in Luzerne Counties.
    I have worked on SHINE for many years back home with my 
friend, State Senator John Yudichak, a Democrat, because 
helping our kids to succeed should always be a bipartisan 
cause.
    Today, SHINE provides academic support for nearly 500 
students from seven school districts. After school programs 
like SHINE are known to improve academic achievement, increase 
school attendance, and engage families in education. They also 
keep our kids safe resulting in lower incidences of drug use 
and violence.
    Where I am from in Pennsylvania, this is extremely 
important. Gangs have become a big and persistent problem in 
some of our neighborhoods. As a father and a grandfather, I 
know how important these programs are to working parents who 
want to be sure their kids have a safe place to go after 
school, not to mention a place that will provide them with the 
tools they need to lead successful lives.
    SHINE and countless other after school programs have 
touched so many families, giving kids education opportunities 
that they otherwise would not have had.
    Last month, I was thrilled to hear that the SHINE program 
in Carbon and Schuylkill Counties was awarded a major Federal 
grant, meaning more students in my part of Pennsylvania will 
have the opportunity to participate in this program. Right now, 
we are currently in the process of expanding SHINE to my home 
town in Hazelton, Pennsylvania.
    Just last week, I was out at the Wilkes-Barre Area Career 
and Technical Center where I made a marshmallow pizza with kids 
in 5th through 8th grade, who are participating in the SHINE 
program. Now, these kids were not just honing their culinary 
skills, they were working on a much larger project, designing a 
restaurant using computer software and figuring out how to run 
it to make a profit.
    Given the bipartisan agreement around the 21st Century 
Community Learning Center language in the Every Student 
Succeeds Act, and the demonstrated success of programs such as 
SHINE, I strongly encourage the department to follow the letter 
of the law as we put this program into place.
    Dr. King, do you anticipate any variance from the law when 
it comes to implementation of the 21st Century Community 
Learning Center program, and can you commit that the 
administration will work to support programs such as SHINE?
    Mr. King. I certainly am a strong believer in the power of 
after school programs, having experience as a middle school 
principal, that for some kids after school is the time when 
they would be most at risk if they did not have an opportunity 
to be in a meaningful, engaging program at school or in a 
community-based organization.
    The same is true sadly for many kids for weekends, school 
vacations, summers, those are the times when kids are without 
activities and most at risk.
    The 21st Century programs are very important, I think, to 
try to meet that need, and we also have many of our Promised 
Neighborhoods' grantees engaged in after school and summer 
activities. Many of the Education Innovation and Research 
grantees are engaged in similar activities and building an 
evidence base around the kinds of program designs that serve 
students well.
    We will certainly implement consistent with the law the 
21st Century program, and think those kinds of investments in 
after school, whether it is through Promised Neighborhoods, or 
Education Innovation and Research, or 21st Century, and the 
flexibility that States and districts will have with Title IV 
dollars as well, those kinds of investments in enriching 
learning time, enrichment time, arts programs, sports programs, 
can make a huge difference in kids' lives.
    Chairman Kline. The gentleman's time has expired. Ms. 
Bonamici?
    Ms. Bonamici. Thank you, Mr. Chairman. Welcome back, Dr. 
King, great to have you back. I am glad my colleague, Mr. 
Barletta, mentioned the importance of extended learning 
opportunities. I wish he would have told us how the marshmallow 
pizza tasted.
    I am glad this committee is continuing its work to make 
sure that the implementation of the Every Student Succeeds Act 
delivers on the goal of Congress in providing State and local 
education agencies with the flexibility and the resources that 
they need to meet those unique needs of their communities, 
while also advancing equitable opportunities and outcomes for 
America's students, especially those who have been historically 
underserved.
    It bears repeating that the Elementary and Secondary 
Education Act is really a civil rights law. Its core purpose is 
to help level the playing field and provide those resources and 
opportunities where they are lacking, and require action to 
help close the gaps. The rigidity of No Child Left Behind--I 
appreciate the chairman's comments and his list of problems 
that we are well aware--in many ways worked against this 
purpose.
    I am confident that the Every Student Succeeds Act will 
uphold the civil rights legacy of the original ESEA and be 
responsive to the needs of students in each community.
    I want to thank you, Dr. King, for mentioning the power of 
the arts to engage students. I have two nationally recognized 
STEAM schools in the district I am honored to represent. If you 
want to see engaged students, visit a STEAM school.
    I want to follow up a little bit on Representative Wilson's 
questions. One of the most frequently criticized pieces of No 
Child Left Behind that I have heard about over the years is the 
high-stakes testing. Fortunately, ESSA takes a number of steps 
to reduce the punitive measures.
    We know teachers need to assess students. We need to start 
looking at assessments as a positive tool to help inform 
instruction. The department's testing plan is aligned with the 
bipartisan legislation I sponsored to lead to the provisions in 
ESSA to reduce the duplicative and low quality assessments. I 
am pleased the President's budget prioritizes funding for 
auditing those assessment systems.
    So, can you briefly follow up a little bit on 
Representative Wilson's question as well, and talk about how 
the funding from these State assessment grants can be used to 
develop streamlined assessment systems that support teaching 
and learning?
    Mr. King. You know, we have seen good progress on this 
across States. One of the things that States have begun to do 
is to ask if students are in 8th grade and they are taking an 
advanced math class, they are taking an algebra class, do they 
really need to also take the 8th grade math exam as well as the 
algebra exam. We have worked with States so that students are 
only taking the one exam. It has been an opportunity to reduce 
assessments.
    We know that there are States that have gathered educators 
together across the State to look at both the State assessments 
and the local assessments. I think one of the challenges, and 
you know as well, is that districts responding to the narrow 
accountability system of No Child Left Behind have added many 
interim assessments over the course of the year, some of which 
may be useful to inform instruction, some of which are actually 
a redundant exercise in mimicking the State tests.
    I think we have seen States and districts take meaningful 
steps to get rid of those, in some cases, replace low-level 
tests with a research project in social studies or with a 
science experiment and a lab report on that science experiment 
in place of a bubble test.
    We are seeing progress on this. I think the additional--
    Ms. Bonamici. I want to get to another question. Thank you, 
Dr. King. Certainly, removing the high-stakes and changing that 
aspect will matter.
    During our subcommittee hearing on February 10, the 
Oklahoma State superintendent discussed her concern that their 
State's current accountability system masks the performance of 
the State's subgroup population. How does ESSA raise the floor 
for equity and address that concern?
    Mr. King. Yes. It is critical that ESSA requires that 
information be provided on the performance of all subgroups, 
and I think Joy from Oklahoma spoke to you on the ways in which 
that will enhance equity in her State, that she wants to make 
sure that schools are paying attention to each of the 
subgroups.
    That is one of the areas where some States will need to 
make adjustments to their existing accountability systems, and 
I think State chiefs are eager to do that.
    Ms. Bonamici. Thank you. I am going to try to squeeze in 
one more question. I appreciate the department's commitment to 
hearing from stakeholders so far to date. Can you talk about 
how the department will continue to involve and be responsive 
to diverse education stakeholders?
    Mr. King. Yes. We continue to meet with stakeholders across 
the department's senior staff. I have been doing meetings 
myself with civil rights leaders across the country. We are 
going to continue to make sure we engage educators, whether we 
are doing the rulemaking process--the negotiated rulemaking 
process obviously has a particular structure, and when there is 
a rule, we will gather public comment on that.
    We see that as an ongoing conversation with stakeholders, 
and think that is one of the strengths of the Every Student 
Succeeds Act, that it really requires at every level, the 
Federal level and at the State level, meaningful engagement 
with educators, with parents, with community leaders, with 
civil rights leaders.
    Ms. Bonamici. Thank you. My time has expired.
    Chairman Kline. The gentlelady's time has expired.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Chairman Kline. Mr. Rokita?
    Mr. Rokita. I thank the chairman. Dr. King, welcome back 
again, good to talk with you. Following up on Ms. Bonamici's 
comments, I just want to say that February 10 hearing to me and 
I think most members of the committee was one where it was 
clearly demonstrated that these local leaders, elected and not 
elected, were clearly looking for the chance to show that they 
want to do their jobs, their job being education, which across 
this Nation is primarily a State issue. You would agree with 
that?
    Mr. King. Yes.
    Mr. Rokita. As we talked about yesterday, I have the 
privilege to serve as chairman of the K-12 Subcommittee, and I 
am also vice chairman of the Budget Committee, the latter 
experience has really taught me, as we kind of alluded to 
yesterday in stark detail, the very difficult fiscal challenges 
facing our country.
    For me, the concerns I have with out-of-control spending 
and skyrocketing debt is not just about dollars and cents, it 
is about the kind of future we are leaving our children and 
grandchildren, the same children and grandchildren we are 
trying to educate and brings us both to the table here today.
    We are all rightly concerned about the quality of education 
our children receive, no doubt, but too often we neglect to 
consider the kind of country that we are leaving them, that 
they will inherit. Make no mistake, if we stay on our present 
course, no one disputes that the country they inherit will be 
mired in debt, plagued by a weak economy, and left with fewer 
opportunities to earn a lifetime of success.
    At that point, in that kind of environment, one has to 
wonder if our present day education efforts will simply appear 
moot. I think we can all agree that our children and 
grandchildren deserve better.
    So, the crisis clearly is bigger than any one agency, 
certainly bigger than yours. Whenever possible, I believe we 
need to act on our responsibility to ensure a leaner and more 
accountable Federal Government.
    That is why one of my leading priorities was, as we worked 
to replace No Child Left Behind, to help roll back Washington's 
education bureaucracy. Why is this important? Because every 
dollar spent here in Washington is money that could be spent in 
our Nation's classrooms, or paying down that deficit and debt, 
that both me, the President, and everyone else in this country 
seems to want to do.
    So, in recent decades, the Federal education bureaucracy 
certainly has grown immensely. I would argue it has gotten out 
of control. Prior to the passage of the Every Student Succeeds 
Act, the Department of Education operated more than 80 programs 
tied to the Nation's classrooms, many of which were duplicative 
and ineffective.
    The bipartisan law that we just passed and signed by the 
President eliminates dozens of unnecessary programs and 
replaces them with the Student Support and Academic Enrichment 
Grant. This grant will provide States and school districts with 
the flexibility they need to better target resources to the 
needs of students, families, and their communities.
    By eliminating these duplicative programs, we help ensure 
Federal tax dollars are used in a more efficient manner, a goal 
I am assuming we both share. That means we are not only 
reducing the role of the Federal Government in K-12 education, 
although that is a great goal in itself as I stated, but we are 
also providing State and local leaders with the tools they need 
to shape their education programs in a way they see fit, as we 
saw in the February 10 hearing.
    Every district and every State has unique needs, and the 
Federal Government is in no way capable of knowing what works 
best for everyone. In other words, the parents and leaders know 
how to help our students better than Washington.
    What I want to ask you today is about a provision in the 
law that requires the Secretary of Education to ultimately 
identify the number of full-time positions associated with 
those eliminated programs, and then reduce the department's 
staff by an equal amount.
    This is a common sense good government policy that will 
help us ensure that the dollars we spend have a direct and 
meaningful impact on a child's education, a win for both 
students and taxpayers.
    So, Dr. King, I know you have begun taking steps to 
implement these provisions, but I am concerned those steps 
might be insufficient. The department recently posted 
information on its Web site detailing the total number of full-
time equivalent positions associated with all the programs 
funded under the ESSA as it existed under No Child Left Behind.
    However, the department has only listed specific 
information for one program of the 49 eliminated under the 
ESSA. So, I have two questions. First, when will the department 
list the number of full-time equivalent positions for all the 
impacted programs? Secondly, what will you do to ensure that 
the number of full-time equivalent positions are reduced by 
that final number within a year of ESSA's enactment as required 
by the law? Thank you.
    Mr. King. Thanks, appreciate the questions. As we look at 
the 2016 budget, many of the programs that are eliminated in 
the Every Student Succeeds Act, do have 2016 appropriations. 
So, one of the distinctions I would make is that we have 
programs that we need to run in the 2016 year but then would 
not run in 2017, and that will allow an opportunity for 
appropriate reductions at that time.
    Happy to work with you and your staff on this issue. We 
certainly want to make sure that we target our resources to the 
programs that are essential to support States and districts.
    Chairman Kline. The gentleman's time has expired. Ms. 
Adams?
    Ms. Adams. Thank you, Mr. Chair, and thank you, Ranking 
Member Scott, and thank you, Dr. King, for joining us again, 
and good luck this afternoon in your confirmation.
    Since being signed into law in 1965, the Elementary and 
Secondary Education Act has always existed to ensure equal 
access to a quality education for some of our country's most 
vulnerable student populations. For many of these students, 
education serves as a pathway out of poverty, a means to 
achieve long-term self-sufficiency, which is why passage of the 
Every Student Succeeds Act has been so critical, especially for 
places like Mecklenburg County that I represent.
    According to a Harvard study, children in Mecklenburg had 
one of the lowest chances of experiencing upward mobility in 
adulthood, with quality of education being one of the main 
delimitating factors.
    Dr. King, one of the most important components of a quality 
education is equitable and adequate resources. It is evident 
that students who need the most are not getting the extra 
resources that they need. How do you plan to encourage States 
to look at what resources schools with disadvantaged students 
have and hold them accountable for providing resources to 
disadvantaged students in addition to improving student 
outcomes?
    Mr. King. Thanks. I appreciate the question. I think there 
are two significant opportunities. One is as States move 
accountability systems beyond just looking at English and math 
performance, they will be able to build accountability systems 
that build in questions like are students progressing in 
science or social studies, are students getting access to art 
and music. There is an opportunity for State leadership that I 
think we will see many States take advantage of.
    The second significant opportunity is the requirement in 
the law that States report on access to some of these 
opportunities, are people spending on access to advanced course 
work, and that will make transparent whether or not students 
across schools are getting the resources they need.
    It will require vigilance both at the Federal level and at 
the State level to make sure those gaps in opportunity are 
closed.
    Ms. Adams. Okay. Thank you for that. I think it goes 
without saying that one of the main reasons No Child Left 
Behind was conceived was the clear disregard for the 
achievement of student subgroups. Without relieving the No 
Child Left Behind era, how will the department ensure--
reliving, excuse me, how will the department ensure that there 
are strong parameters in place to protect our neediest students 
and that the States are adequately serving them?
    Mr. King. We are committed that the regulations and 
guidance that we develop advance equity and excellence and 
address the needs of subgroups.
    We are still early in the process of gathering feedback and 
comment from stakeholders, but as we do that, we have heard a 
strong and clear message from the civil rights community and 
also from educational leaders, that they believe it is 
important to set guardrails at the Federal level that ensure 
that State accountability systems meaningfully intervene when 
subgroups are not performing, and that those interventions are 
intensified if progress is not made.
    Ms. Adams. Thank you. Dr. King, if some of my colleagues 
have their way and the department has an extremely limited role 
in the implementation of the Every Student Succeeds Act, what 
negative outcomes may we be opening up our students to?
    Mr. King. We believe that we can within this bipartisan law 
provide the guardrails necessary to protect equity. I would say 
as we look back at the last 50 years, what we know is that at 
times, States and districts have not lived up to their 
responsibility to serve all students well.
    I mentioned yesterday visiting part of the country where a 
district had concentrated the highest needs students in a small 
number of schools. They were racially isolated, 
socioeconomically isolated, and then received less resources 
than other schools in the community.
    We have an obligation as a civil rights enforcement agency 
implementing a civil rights law to make sure States and 
districts must take responsibility for the success of all 
students.
    Ms. Adams. Thank you, sir. Mr. Chair, I yield back.
    Chairman Kline. The gentlelady yields back. Dr. Foxx?
    Ms. Foxx. Thank you, Mr. Chairman. Welcome back, Dr. King. 
Under No Child Left Behind, the Federal Government dictated how 
States and school districts measured school performance. 
Schools identified as underperforming or failing were forced to 
adopt prescriptive and burdensome school improvement plans. 
Reforms within those schools were dictated by the Federal 
Government. If the school failed to improve over several years, 
increasingly harsh corrective action was required.
    Within the federally mandated school improvement plans, 
States and local districts lost the right to determine what was 
needed to make positive changes. Congress recognized the 
negative impact this had on students, and we worked in a 
bipartisan fashion to pass a law that would restore State and 
local control of K-12 education.
    Now, under the Every Student Succeeds Act, schools and 
school districts are able to develop school improvement plans, 
approved and monitored by their State leaders. This new 
flexibility allows State and local leaders not only to 
collaborate but also to be held accountable and take 
responsibility when it comes to improving student learning and 
achievement.
    Two weeks ago, Dr. Vick Wilson, the superintendent of 
Hartselle City Schools in Hartselle, Alabama, came before the 
committee to discuss how the new law represents ``The first 
time in 15 years the State and local education agencies can 
demonstrate what they can do to support student learning 
without Federal overreach.''
    Dr. Wilson emphasized the benefit of the new flexibility 
superintendents have under the Every Student Succeeds Act when 
he said ``Every leader needs the flexibility to deal with these 
situations that are unique to their district in a manner that 
best meets the need. ESSA is a huge step in this direction, and 
will serve leaders as they strive to lead all learners up the 
stairs of success.''
    He went on to say ``Throughout the United States, the 
Nation's 14,000 public school superintendents are charged with 
meeting and exceeding expectation of student achievement and 
learning for stakeholders at the local level. What works in 
Alabama might differ slightly from what works in Minnesota. 
ESSA provides a new opportunity for each of those leaders to 
craft and implement customized education for learners in their 
districts.''
    As you can see, State and local leaders are eager and 
excited to make the changes needed in their individual 
districts that will have a positive impact on their students.
    The Every Student Succeeds Act prohibits the Department of 
Education from prescribing school improvement strategies. The 
text of the law says ``Nothing in this act shall be construed 
to authorize or permit the Secretary as a condition of approval 
of the State plan or revisions or amendments to the State plan 
to prescribe any specific school support and improvement 
strategies or activities that State or local educational 
agencies establish and implement to intervene in support and 
improve schools and improve student outcomes.''
    That sounds very straightforward to me. In fact, it is one 
more example demonstrating Congress' clear intent to reduce the 
Federal role and restore State and local control of our 
Nation's K-12 classrooms.
    I have a very simple question for you, Dr. King. Can you 
assure us that the department will comply with this 
prohibition, and all I need is a simple yes or no.
    Mr. King. We will certainly in all of our actions be 
consistent with the letter of the law. As we are developing 
regulations and guidance, we will gather feedback and input 
from stakeholders and make sure that we use regulations and 
guidance to address areas where clarity is needed, but yes, we 
will ensure that we maintain the flexibility that school 
districts have and States have around the interventions in 
struggling schools, and we will also ensure they comply with 
the expectation of the law, that they meaningfully address 
achievement gaps.
    Ms. Foxx. So, there was a yes in there somewhere, I 
believe.
    Mr. King. Yes, ma'am.
    Ms. Foxx. Thank you very much. I yield back.
    Chairman Kline. The gentlelady yields back. Ms. Clark?
    Ms. Clark. Thank you, Mr. Chairman, and Ranking Member 
Scott, and thank you for joining us again, Mr. Secretary, and 
best of luck this afternoon.
    Mr. King. Thank you.
    Ms. Clark. I wanted to talk briefly about the Preschool 
Development Grants, and the work that we have been able to do, 
and I think make great progress in developing the trauma-
informed practices, which I am hopeful are going to be able to 
reduce suspension and expulsion that we are seeing in early 
education and child care.
    In Massachusetts alone in the last school year, we had over 
600 preschoolers suspended from their programs. At the same 
time, we are trying to change that narrative, and we have 
adopted the CSEFEL model, which was jointly developed by the 
Departments of Education and HHS, which I think will certainly 
help us make sure that exclusionary discipline is the last not 
a first resort for young children.
    So, as HHS starts implementing these Preschool Development 
Grants, I have two questions. One, how are you going to ensure 
that we are continuing our work and supporting our workforce 
training and development around trauma-informed education, and 
also, for States like Massachusetts that are midcourse in these 
grants, I know you are entering into a Memorandum of 
Understanding, but if you could expand on how you are going to 
do that transition.
    Mr. King. Yes. Thanks for the question. So, early learning 
is, I think, critical to addressing what we face as a country. 
We know that students who have the benefit of high quality 
early learning do better. We worry a lot about the issue of 
exclusionary discipline in early learning.
    As you know, the percentage of African American students in 
early learning and Pre-K is around 18 percent of the percentage 
of students suspended, it is in the mid-40s, so there is work 
that we need to do.
    We have been working with HHS within the context of the 
Preschool Development Grant program and the Race to the Top - 
Early Learning Challenge, from the beginning. We have done 
joint guidance with them. We have been partnering in trying to 
support States and providers in attending to issues of training 
for educators and center directors, and we will continue to 
work with them in that.
    We also have a broader administration-wide effort, You're 
My Brother's Keeper, focused on getting school districts and 
preschool providers to rethink discipline and to focus on how 
we ensure that students get the support they need to succeed in 
the classroom.
    Ms. Clark. Great. Also, in the Every Student Succeeds Act, 
there are several references to ``specialized instructional 
support personnel.'' This is a new term that refers to 
professionals such as school psychologists, social workers, 
speech-language pathologists, and school nurses who really 
provide our school-based prevention and intervention services.
    The law requires that States and local education agencies 
engage these professionals. How is the department going to help 
States and local policymakers and inform them about the role of 
these professionals and ensure that they are true collaborators 
in the implementation?
    Mr. King. Both in our efforts, the departments together, 
public comment and feedback and to meet with stakeholders, we 
are attending to address personnel that you are describing.
    I think the voice of school counselors, for example, is 
hugely important as we think about how to improve school 
safety, school climate, support students in the transition 
between high school and postsecondary opportunities.
    We will also in our guidance and in the regulations that we 
create endeavor to ensure that States are doing a good job on 
stakeholder input, including input from the diverse range of 
professionals who work in schools.
    Ms. Clark. Thank you so much. Mr. Chairman, for the first 
time ever, I yield back.
    Chairman Kline. I am so pleased. Thank you. The gentlelady 
yields back. Mr. Allen?
    Mr. ALLEN. Thank you, Mr. Chairman, and thank you, Dr. 
King, for coming here today to discuss the implementation of 
the Every Student Succeeds Act. Both of my parents were in 
education. Obviously, we sat around the kitchen table many 
nights talking about how to make it better.
    You know, throughout our efforts to reform K-12 education 
and reducing the Federal role, restoring local control has 
remained a primary goal because it is our firm belief that 
State and local leaders know best what schools need to deliver 
a quality education to the students.
    Obviously, our teachers are very happy because of the 
ability to spend more time in the classroom and less time 
dealing with compliance issues.
    Unfortunately, for the last several decades, the Federal 
Government has assumed more and more control over K-12 
education at the expense of State and local leaders. In fact, 
the Department of Education operated more than 80 programs tied 
to the Nation's classrooms. This flood of bureaucracy largely 
dictated how States and school districts should spend limited 
resources, making it more difficult for States and schools to 
address local priorities and effectively serve their students.
    The Every Student Succeeds Act includes several provisions 
to restore flexibility to State and local leaders so they can 
identify and invest in the areas that best meet the needs of 
their students.
    As part of this act, Section 5002, the purpose of this part 
is to allow States and local education agencies the flexibility 
to target Federal funds to programs and activities that most 
effectively address the unique needs of States and localities.
    This is the flexibility that States and local leaders have 
been waiting for. We hear from teachers, superintendents, local 
leaders, and the business community in our districts all the 
time about having the flexibility to use their resources as 
they see fit to allow them to better meet unique needs of their 
students.
    That is why I was surprised and concerned to see that your 
budget proposal to change the distribution of funds at the 
local level from a formula grant program to a competitive 
grant, something not explicitly authorized in the law.
    The difference between the two is quite significant. 
Congress intended to provide all schools additional funding 
flexibility through a fair and equitable formula grant. The 
administration is proposing a scheme that will leave the 
department in charge of picking winners and losers. This is not 
at all what Congress intended.
    Could you explain why your budget proposal ignores the 
letter and intent of the provisions in the law establishing 
this important flexible grant program, and will you ensure the 
committee that the department will implement the Student 
Support and Academic Enrichment Grant as Congress authorized 
it, as well as protect the State and local funding flexibility 
provided under the law?
    Mr. King. As I mentioned earlier, I think the grant program 
has tremendous potential to be helpful to students, whether it 
is investing in the arts or school support services, creating 
safe and supportive climates for our students.
    One of the challenges is ensuring that the distribution 
results in schools having a meaningful allotment of funds 
through which they can actually produce a program that has a 
meaningful impact for our students.
    I am certainly open to working with the committee on how we 
do that, but I think whatever funding level we establish, we 
then have to ask are individual districts and schools going to 
have grants large enough to make a difference for their 
students. Often times the tension, as you know, around 
competitive grants is if you do not have enough money to have a 
meaningful impact, rather than spread the money very thinly in 
a way that does not have much impact for students, there can be 
an advantage to a competitive process.
    We are certainly open to working with you as the budget 
process moves forward.
    Mr. Allen. That is the intent we need, that we follow the 
letter of the law here as far as these grants are concerned to 
make sure it is fair and equitable to each and every State. 
Thank you for agreeing to do that.
    The other thing that we need to address as far as education 
is concerned is the motivation of the student. You know, you 
are in the business. Obviously, we are all concerned about our 
dropout rate. We have 23 seconds left. Can you give me your 
ideas on how we can motivate folks to want to stay in school 
and get a good education and then go get a good job?
    Mr. King. Yes.
    Chairman Kline. You have 12 seconds.
    Mr. King. A 12 second version of that? I will say I think 
reauthorization of the Perkins Career and Technical Education 
Act could be very helpful. There are a set of students who we 
may not be reaching with the traditional academic program 
today, but if we could integrate that traditional academic 
program with a strong career path, engagement with employers, 
and a clear path to their future, that could make a huge 
difference.
    Chairman Kline. The gentleman's time has expired. Mr. 
Takano?
    Mr. Takano. Thank you, Mr. Chairman. Secretary King, can 
you tell us what can the department do to ensure equitable 
access to effective teachers for the highest needs students?
    Mr. King. I think it is a hugely important issue. You know, 
one of the things that I think the Every Student Succeeds Act 
importantly maintains from No Child Left Behind is this 
commitment to equitable access to effective teaching.
    We have been working with States on educator equity plans. 
States, I think, have been very thoughtful about that work. For 
example, I believe it is Minnesota that is focused on how you 
might help paraprofessionals prepare for transitions into 
teaching, to identify paraprofessionals who are close to the 
community, may speak the language of students, and give them 
opportunities to become teachers.
    We have a State like Vermont that is focused on how you 
give students experiences in teacher prep with rural education 
so you can attract them to rural schools where there is a high 
need.
    I think we have to have targeted strategies State by State, 
and we look forward to continuing to work with States on those 
equity plans.
    Mr. Takano. Well, during the reauthorization debate, one 
thing that was agreed on was that children were being tested 
too often in schools. Teachers are spending way more time on 
testing than teaching, and students are spending more time 
taking tests than learning.
    One way that the ESSA addresses this is by including the 
innovative assessment pilot, to allow States to be able to 
develop assistance with assessments that better align with 
student-centered competency based learning models.
    How does the department plan on moving forward with the 
pilot?
    Mr. King. We are in the early stages of gathering feedback 
and input on areas where States and districts need more 
guidance, so we will gather that input and based on that 
determine the process we will follow to give guidance on the 
innovative pilot.
    I will say we have a great example in New Hampshire. New 
Hampshire has been at this for several years. They have been 
working to develop performance-based assessments that they are 
now piloting in a number of their districts, that will 
ultimately become their State-wide--they hope will become their 
State-side assessment system. They have learned a tremendous 
amount.
    I think the Council of Chief State School Officers is 
working with chiefs to make sure they learn from New Hampshire 
as we move forward.
    Mr. Takano. Wonderful. Thank you. I look forward to the 
implementation. Several States, including my own home State of 
California, are currently or will be considering legislation 
this year to disaggregate data for Asian American and Native 
Hawaiian and Pacific Islanders.
    The Education Department pledged technical assistance to 
States and districts interested in doing this, and the ESSA 
directs the Secretary to provide this technical assistance, as 
well as assistance in using such data to improve outcomes, 
academic outcomes.
    How do you, Mr. Secretary, plan on implementing this 
portion of the law in a timely manner to meet the demand from 
Asian American and Native Hawaiian and Pacific Islander 
communities and interests from the States?
    Mr. King. I am very interested in this question. I think 
there is some good evidence from Washington State, for example, 
as well as Hawaii, around the leverage that can come from 
disaggregation, where you can better identify subgroups that 
need attention and intervention, where there is very dramatic 
variations in performance.
    We are committed to providing that technical assistance. 
Our P-12 team is working on thinking about how we best support 
States in that work. States also have an opportunity as they 
use their flexibility to design new accountability systems to 
take that into consideration, and to go further with 
disaggregation than is the minimum requirement of the law.
    Mr. Takano. Well, how will States ensure that Asian 
American and Native Hawaiian and Pacific Islander communities, 
particularly those with disparities and educational outcomes 
are included and are aware of opportunities, and to provide our 
input, for example, in the creation of State plans, how will 
you ensure the States are transparent about these 
opportunities?
    Mr. King. We will certainly ensure both that we gather 
input and feedback from diverse communities. We have already 
met with some rights' organizations that are focused on the 
needs of Asian American students, so we will do that at the 
Federal level, and we will ensure in our regulations and 
guidance that States understand they have a responsibility to 
consult with diverse stakeholders.
    Mr. Takano. Wonderful. ESSA makes several references to 
``specialized instruction support personnel.'' This is a new 
term that refers to professionals such as school psychologists, 
school social workers, speech-language pathologists, school 
nurses, et cetera.
    How will the department inform State and local policymakers 
about the important role of these professionals?
    Mr. King. We certainly will gather input from--
    Chairman Kline. I am sorry, Dr. King. The gentleman's time 
has expired. Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chair, and thank you, Mr. 
Secretary, for your time today and testifying.
    I wanted to build, if I could, on my colleague from 
Georgia's question about the intent of the law. Specifically, I 
want to talk to you about a provision that is important to my 
constituents.
    My constituents frequently reach out to me and to my office 
regarding Common Core. I must say as a parent, I agree with 
their concerns. What started off as a State led effort, it 
quickly grew into an avenue for Federal overreach and into 
local classrooms, whether through conditional waivers or, of 
course, Race to the Top, many States and schools got coerced 
into adopting Common Core.
    One superintendent, Todd Gazda of Ludlow, Massachusetts, 
was cited in the New York Times describing the government's 
intrusion as ``It was almost like extortion. If you want money, 
you have to do things the way we want.''
    As a former State legislator, I can absolutely agree and I 
can relate with the sentiments of his frustration.
    Setting standards, developing curriculum, and assessing 
student achievements are State and local responsibility, not 
Federal ones, and that is why this committee was very sure to 
include several provisions which were included in the Every 
Students Succeeds Act that strictly prohibited the Federal 
Government from racing into our States and coercing our schools 
into adopting Common Core or any other standards or 
assessments.
    The law puts a firm end to the Federal Government's 
bullying States into submission when it comes to how they 
choose to teach their students. We have so many very qualified 
educators and parents who are involved and know best for their 
students in their cities, and to have to teach to a Federal 
template is counterproductive, to say the very least.
    That being said, the administration has implied that the 
Every Student Succeeds Act includes requirements for college 
and career ready standards or supports college and career 
readiness.
    Now, for many, that is code for Common Core. I just would 
like to, I guess, take this opportunity first of all to ask 
you, Dr. King, exactly how many times does the phrase ``college 
and career ready'' appear in the Every Student Succeeds Act?
    Mr. King. I could not tell you the number of times, but to 
be clear--
    Mr. Bishop. Just a second. I do not mean to interrupt but I 
want to make this point. It appears zero times. The term 
``college and career ready'' does not appear anywhere in the 
act, yet the administration is sending a message that directly 
contradicts our intent to prohibit the Federal involvement in 
setting standards or assessments.
    On that point, do you know how many provisions in this law 
explicitly prohibit the Federal Government from dictating to 
States what kind of academic standards they can or cannot 
adopt?
    Mr. King. We are very clear and have always supported that 
standards should be State developed, State adopted, and--
    Mr. Bishop. Well, good, this is helping you then. Four 
times it specifically prohibits the Federal Government.
    There are four provisions. I would like to just cycle 
through a couple of them that very clearly state that the 
Federal Government should not be involved in the coercion of 
States in adopting specific standards.
    Section 8527 specifically says ``No funds provided to the 
department under the act may be used by the department, whether 
through grant, contract, or cooperative agreement, to endorse, 
approve, develop, require or sanction any curriculum, including 
any curriculum aligned to Common Core standards developed on a 
Common Core States standards initiative or any other academic 
standards common to a significant number of States.''
    Cycling through to Section 8544, specifically and 
unambiguously provides ``Nothing in this act shall be construed 
to prohibit a State from withdrawing from Common Core standards 
or from otherwise revising their standards.''
    You can see Congress was very clear. In fact, yesterday a 
State legislator in Michigan introduced a bill to get rid of 
Common Core in the State of Michigan in reaction to this law.
    I just hope that you will ensure this committee based on 
your initial response here that the Department of Education 
will respect the clear letter of the law and ensure that 
Federal assessment does not force, coerce, or otherwise impose 
State specific standards to set academic standards.
    Mr. King. Prior to the adoption of the Every Student 
Succeeds Act and under the Every Student Succeeds Act, we are 
committed to the principle that standards should be determined 
by States, developed by States, and the implementation of 
curriculum is a matter for State and local decision-making.
    That said, it is important that the Every Student Succeeds 
Act sets the goal that States will have high standards that 
move towards students graduating from high school ready for 
success, college, and careers, ready to take credit bearing 
course work when they get to college after completing their 
high school--
    Chairman Kline. The gentleman's time has expired. Mrs. 
Davis?
    Mrs. Davis. Thank you, Mr. Chairman. It is good to see you 
again, Dr. King, and in just a little while, we will be able to 
call you ``Secretary King.'' Thank you for being here.
    I want to just very, very briefly mention, just to thank 
you, the department, I think they are following through on a 
letter that was received regarding increasing diversity among 
our schools, and we are very pleased to see movement on that, 
and to be able to talk about that issue more. I greatly 
appreciate it.
    I would just respond to my colleague as well and to others 
because I think we certainly understand the language and the 
intent of the law, but I think that the concern and the 
opportunity to offer guidance in any number of areas is very 
important.
    And particularly, we have talked about before, I know as a 
teacher and as an educator yourself, the ability of communities 
and districts across the country to share their valuable 
experiences is very, very important.
    I wonder if you could discuss briefly the role really of 
the department to engage in that discussion, to be able to 
specifically in Title II address ways that districts can 
develop systems that recruit, prepare, provide ongoing job 
embedded support for teachers, of course, but also for our 
principals.
    So, given the fact that we have to be very careful about 
the way that is done, not prescribing, but also encouraging and 
guiding, how do you see that role?
    Mr. King. So, three quick examples. I think there is an 
opportunity with the teacher equity plans that States are 
implementing to lift up good work that is happening around the 
country, States that are thinking in smart ways about how to 
bridge shortages that they are facing around teachers for 
English language learners or teachers for students with 
disabilities.
    States that are investing in teacher leadership 
opportunities, where teachers are serving as mentors or coaches 
for their colleagues, able to lead projects in their schools 
and districts.
    Two, we have an initiative called Teach to Lead, which is 
about bringing teachers together who are leading from their 
classrooms, teachers who are doing interesting innovative work 
in their schools and districts to improve parent engagement, 
improve academic outcomes for students at risk, think about how 
to use technology in smart new ways to help students.
    We are bringing those teachers together so they can share 
best practices, and I think that is an important role for the 
department.
    Mrs. Davis. Do you see that more in face-to-face 
interaction, Web sites? We know there are multiple Web sites. 
Many schools, universities, who put out Web sites regarding how 
even to have a very inclusive interactive evaluation process 
for teachers. Is that something that you--are you feeling you 
have some prohibitions against doing something like that, or is 
it pretty clear that is a guidance?
    Mr. King. You know, it is clear that is guidance and a 
resource and technical assistance that we can provide to States 
and districts. We also have technical assistance centers that 
are focused on helping States and districts with innovative 
projects to strengthen teaching, and certainly we will continue 
to do that work.
    Mrs. Davis. Thank you. I appreciate that. I think 
particularly for our principals as well, we know how important 
that is. We know there are some outstanding programs in the 
country, and people can take a look at those.
    I would hope that none of us would want you to feel sort of 
constricted in being able to share really some outstanding 
practices. One of the things that we all deal with is how do 
you scale up. We know there are great examples across the 
country, and yet, trying to bring those with a real focus in an 
area so you have kind of a critical mass, and there is no 
question whether or not these programs can be utilized 
effectively throughout the country.
    So, I hope we will be able to do that and explore that, and 
perhaps the committee as well can be able to engage in some of 
those practices that I think could be very helpful to schools.
    Mr. King. Absolutely.
    Mrs. Davis. I think the act supports that. Thank you very 
much.
    Chairman Kline. The gentlelady yields back. Ms. Stefanik?
    Ms. Stefanik. Thank you, Mr. Chairman. Dr. King, thank you 
for joining us for a second day.
    I want to build on Mr. Bishop's line of questioning. I want 
to ask you about your experience as the commissioner of 
education in our home State of New York.
    As you can imagine and I am sure you are very familiar 
with, I hear lots of concerns, questions and comments from 
students, from teachers, from parents, about the rushed and 
fundamentally flawed implementation of Common Core in New York 
State.
    To me, the feedback that I hear is that across party lines, 
there is frustration with teacher evaluations, with high-stakes 
testing, and sky high opt-out rates. In my district, for 
example, opt-out rates are some of the highest in the State 
with schools in Franklin and Hekimer Counties, reporting opt-
out rates in the high 80s.
    So, my question for you today is what lessons did you learn 
from the fundamentally flawed implementation and the rushed 
implementation in New York State, and do you think mistakes 
were made?
    Mr. King. We have to go back to as States have moved over 
the last few years towards higher standards, what was the 
reason, what was the rationale? What we know, whether it is New 
York or all across the country, too many of the students who 
graduated from high school graduated under-prepared for what is 
next.
    As you know, on the SUNY campuses, SUNY is spending 
millions of dollars on remedial courses in the highest needs 
communities. At SUNY and CUNY, the State university system and 
the City university system, you have campuses where 80 to 90 
percent of entering students are required to take remedial 
classes, essentially high school classes, for which they and 
their families pay college prices.
    So, the challenge is how do you ensure that the system is 
pointed towards high standards that allow students to graduate 
ready for success. That is a hard process. It requires 
consistent stakeholder engagement--
    Ms. Stefanik. Do you think you adequately got feedback 
consistently from stakeholders? One of the concerns that I hear 
from teachers is they felt they were not adequately a part of 
the process and the discussion.
    Mr. King. New York, as in many States, teachers were very 
actively engaged in the process of developing standards, and 
also adjusting standards, and that process continues. I think 
we will always expect that States will consistently seek 
feedback from teachers and principals as they adjust their 
standards.
    I do think for New York and around the country, one of the 
challenges is the implementation of higher standards has come 
along side changes in teacher evaluation, and it is fair to 
say, and this is true again across the country, in many places 
those contentious discussions about teacher evaluation got 
completed with the issues around higher standards.
    I think this new law gives us an opportunity for a reset on 
those conversations around teacher evaluation in particular, 
and there is an opportunity for States to look at how do they 
ensure that their valuation systems are actually providing 
support to educators, how do we ensure that they do not feel 
like a ``gotcha system'' but rather feel like a source of 
support, and how do States ensure they are leveraging, whether 
it is Title I or Title II dollars to support teachers around 
implementing higher standards, again, with a willingness to 
adjust that effort as time goes along.
    Ms. Stefanik. Just to go back to my initial question, you 
would not have done anything differently. Do you believe there 
were any mistakes made in the flawed roll out of Common Core in 
New York State?
    Mr. King. Again, in New York, as in the rest of the 
country, I think we have learned a lot about the change process 
over the last few years. There were, I think, in many States an 
unfortunate phenomena, there was an unfortunate phenomena of 
the teacher evaluation work and work of raising standards being 
completed together, and I think that generated both while I was 
there and after I left its own set of tensions.
    Ms. Stefanik. So, as commissioner, when you served as 
commissioner of New York State, what would you have done 
differently? I consistently hear from teachers, parents, and 
students about the rushed implementation, that their viewpoints 
were not integrated.
    I know you are Acting Secretary of Education, you are 
nominated to be Secretary of Education. I think it is really 
important to see if you think if there were any mistakes made 
when you served as commissioner of New York State.
    Mr. King. I think it is more a question of what we learned 
over time. Again, not just in New York but across the country. 
I think part of what we are seeing with the testing action 
plan, we did something similar in New York, grants to school 
districts, to bring together educators to look at the 
assessments they were given, evaluate which ones are useful and 
which are not, and which could be reduced.
    That was a good step. I think us in New York and folks 
across the country wish we had done that sooner. I think the 
conversation that will be unleashed by the Every Student 
Succeeds Act about how we broaden the definition of 
``educational excellence,'' I think, creates an opportunity.
    I do not think anyone intended for science and social 
studies or art and music to get less attention when No Child 
Left Behind was adopted, but the reality is in many places, 
they did. We now have an opportunity with the new law to relook 
at that and for States to think more broadly about how they 
define ``educational excellence.''
    Chairman Kline. The gentlelady's time has expired, I am 
sorry.
    Ms. Stefanik. Thank you.
    Chairman Kline. Mr. DeSaulnier?
    Mr. Desaulnier. Thank you, Mr. Chairman. I want to thank 
you, Doctor, from what I have been able to see personally, and 
watching on television, and hearing your testimony in the last 
few days, that it demonstrates at least to me and I think to 
all of us your commitment and your passion for the career you 
have been embarked on, and your future position, hopefully.
    I wanted to ask you questions about after school programs 
and intersession programs, and this has already been brought up 
in today's hearing, but there has been bipartisan effort on 
some of these issues.
    And when we look back--I am old enough to remember when we 
first started talking about this, and I think if memory serves 
me, Congress in the 1960s had the Jenkins Report, who talked 
about the importance of not just socioeconomic on the 
achievement gap or what had become the achievement gap, but 
also how we address that.
    First of all, thank you for your support for community 
learning centers, that you kept in the budget at $1 billion, 
and the success of those programs.
    Secondly, probably not so positively, but I would like you 
to talk about this, about where this may engage. Mr. Thompson 
and I worked on a bipartisan effort for family engagement 
centers that you did not put in the budget.
    Clearly, these are the kind of things that we now know 
looking back that if we had fully funded them and kept them 
going, the achievement gap might not be what it is today.
    So, could you speak about family engagement, particularly 
in disadvantaged communities, where there is such a challenge 
and you have put so much of your career into, but how do you 
foresee not only in this budget but in coming budgets, but if 
we were to fully fund these, and I believe the achievement gap 
would start to be significantly reduced.
    Mr. King. Yes. You know, one of the challenges as we 
developed this budget was trying to figure out how we align the 
President's priorities with constraints created by the caps in 
the budget agreement.
    I will say I think family engagement obviously is a hugely 
important issue in schools, it is critically important that 
educators are well prepared around that. The budget includes 
funding for teacher and principal preparation, innovation.
    I think one of the places where we can stand some 
innovation and teacher and principal preparation is around 
making sure folks are well prepared to engage with families as 
partners when they enter schools.
    There is an opportunity with Title IV dollars, you know, 
the existing programs that were in the 2016 budget for Title IV 
were at about $278 million. We added to that $222 million in 
the President's budget to get to $500 million. Title IV 
resources could be used for elements of family engagement, 
partnerships with families that would create safe and 
supportive school climates and strengthening the breadth of 
kids' academic experience.
    I think there are opportunities within the President's 
budget to direct resources towards family engagement, but 
clearly it is an area that as a country we need to do more.
    Mr. Desaulnier. So, if you were to project out over a 
period of time knowing in California and also having spent some 
time in your State, in Harlem, with a study from Columbia 
University, but in areas in Los Angeles and the Bay Area, where 
I am from, including my district, when these programs are up 
and are sustainable, there is a real sense, as you know, of 
empowerment for the whole community, and in communities that 
often times do not feel that ever in terms of government 
agencies.
    So, when you do not fund them or when you fund them and 
then take them away or marginalize them, the effect not just on 
the child but on the community and through multiple generations 
just keeps reinforcing, I think, that there are answers, but we 
sort of were loosey with the ball. We keep saying this time we 
are going to be there but then we go away.
    So, I appreciate your comments, but say you were to stay in 
this job for longer than just a year, how would you project out 
those kinds of investments, and how can we make them 
sustainable, and still hold them to account?
    Mr. King. I think we do need to build on investments in 
family engagement. It may be there are smarter ways to use 
existing resources, Title I is another place where districts 
could be investing resources in family partnerships.
    I also think we are seeing with our Promise Neighborhoods 
initiative the leverage that comes when you have schools 
partnering with community-based organizations, so that you 
broaden the outreach to parents and can engage parents on 
multiple levels, both as the first teacher of their children, 
but then also providing parents with opportunities to get a GED 
if they need that, opportunities to get employment training, 
opportunities to get language skills.
    We are seeing some very strong examples in Promise 
Neighborhoods and in our innovation, education and innovation 
and research programs.
    So, I think this is a place where there is good momentum, 
and we have to continue to build on that momentum.
    Mr. Desaulnier. Thank you. Thank you, Mr. Chairman.
    Chairman Kline. The gentleman yields back. Mr. Carter, you 
are recognized.
    Mr. Carter. Thank you. Dr. King, thank you for being here 
this week. We appreciate the time that you have committed to us 
this week very much.
    You know, I am a freshman member of the House, and quite 
often, I am asked what have you done since you have been there. 
I point to this, and I want to thank you, Mr. Chairman, because 
this is one of the things that I am very proud of that we have 
done, this devolution of power from the Federal level to the 
State level. It is very important.
    You are going to play an important role. Your department is 
going to play an important role in implementing this, and 
delivering on the promises that we have made to reduce the 
Federal role, to restore State and local controls, and most 
importantly, to empower parents to hold schools accountable.
    Over the last seven years, I have witnessed in the State of 
Georgia the Federal Government using rules and regulations and 
guidance to impose the one-size-fits-all policies and the 
micromanaged schools, hampering the ability of parents and 
teachers and State and local officials to address the unique 
needs of their students, and that is very important to me.
    I believe education at the local level is the best. I am 
very adamantly in favor of this, and I want to make sure it is 
implemented like we intended for it to be.
    The reforms that we have in Every Student Succeeds gets the 
Washington bureaucrats out of it, and that is what we want, and 
that is very important, very important to me, very important to 
my constituents.
    We can finally stop Common Core. I can tell you in the 1st 
District of Georgia, this is what people would want, and we 
want to make sure this gets done.
    I want to talk specifically about some provisions in the 
law that protect State and local early childhood efforts from 
Federal interference. This is very important. The law is very 
clear that early child care and education programs are a State 
and local responsibility.
    In fact, I read from Section 8549(b) of the law, and you 
can see it here, ``It is the sense of Congress that the State 
retains the right to make decisions free from Federal intrusion 
concerning its system of early learning and child care, and 
whether or not to use funding under this act to offer early 
childhood education programs.''
    It is very clear on what we meant for that. It broadly 
outlines how States can better serve children and families, and 
it highlights the efforts to provide parents--the most 
important role that they play, they are the ones who are really 
the key here--provides them with a variety of programs and 
services, and protects the rights of local providers to design 
the programs that best meet the needs of the children that they 
serve.
    When it comes to implementing the Preschool Development 
Grant program, the Every Student Succeeds Act deliberately 
clarifies, it says ``Nothing in this section shall be construed 
to authorize the Secretary of Health and Human Services or the 
Secretary of Education to establish any criterion for grants 
made under this section.''
    It is very clear on what we are stating there. The law 
always specifies that it is up to the States, not the Federal 
Government, to develop and implement learning curriculum, 
standards, assessments, as well as specific measures or 
indicators of quality in the systems that states use to assess 
the quality of the programs and the providers.
    You want to know why? The reason is because it is parents 
and teachers who know what is best for their children, not the 
Federal Government. This is something I believe very strongly 
in.
    The States are now responsible. They are responsible now 
for defining terms such as ``high quality'' as it relates to 
early childhood programs, determining teacher qualifications 
and evaluations, specifying class sizes, setting expectations 
for scope and duration of programs, not the Department of 
Education.
    So, as the First Five Years Fund, in support of these 
provisions through the Every Student Succeeds Act, State 
leadership will have the opportunity to efficiently coordinate 
their early childhood systems, developing a plan to improve and 
expand upon what they are already doing.
    So, Dr. King, my question to you is how will you work with 
the Department of Health and Human Services to ensure that 
these provisions are honored so that the States can provide 
children and families quality early learning opportunities 
without Federal interference?
    Mr. King. We certainly, as we move forward with 
implementation of the Preschool Development Grants and the 
successor program in the Every Student Succeeds Act, we will 
continue to work closely with Health and Human Services to 
support States and districts and programs that they have 
designed, that reflect their work on ensuring students have 
access to high quality opportunities.
    I think as a country, as we think about the direction of 
early childhood education, we have to be focused on the issue 
of quality, are the teachers who are in the early learning 
context well prepared for the diverse students with which they 
are engaging? Are we doing everything we can to ensure 
inclusive environments?
    As you know, we have programs for preschool children under 
IDEA, and to the extent that we can ensure those students have 
access to inclusion in the general education classroom, and we 
should--
    Chairman Kline. Dr. King, I am sorry, but you have a hard 
stop time and Mr. Carter's time has expired, and we are going 
to try to move expeditiously through the next three members, 
starting with Dr. Roe.
    Mr. Roe. Thank you, Mr. Chairman, and sorry, Dr. King, I 
missed the first part. I had to be at a Veterans Affairs 
markup.
    There are many issues Congress wanted to address in 
reauthorizing the Elementary and Secondary Education Act, 
perhaps the most significant issue was the Federal Government's 
top-down approach to holding schools accountable.
    The Every Student Succeeds Act gives the power back to the 
States to establish accountability systems that work best for 
their schools. The law outlines several broad parameters for 
State leaders to look at as they develop State-based 
accountability systems.
    However, States now have the flexibility to weigh each 
expectation as they see fit. Within these State-based 
accountability systems, States will evaluate their public 
schools based on proficiency in reading and math, English 
proficiency for English learners, and graduation rates for high 
school students, a valid and reliable State-wide indicator for 
elementary and middle schools, and at least one other indicator 
of school quality or student success.
    The Every Student Succeeds Act, and this is a critical 
difference from No Child Left Behind, also allows State leaders 
to establish their State's long-term goals as well as the 
measurements of interim progress they will use to evaluate 
progress toward those goals.
    As a result, the law successfully returns the 
responsibility of accountability back to State and local 
leaders who know better than anyone what their students need to 
succeed in school.
    As Education Week noted, ``The Every Student Succeeds Act 
is a U-turn from the current much maligned version of the ESEA 
law, No Child Left Behind Act, States' wide discretion in 
setting goals, figuring out just what to hold the schools and 
districts accountable for and deciding how to intervene in low-
performing schools.''
    Key education stakeholders have also praised the new law. 
The chief counsel of a State school officer said, and I quote, 
``Through the Every Student Succeeds Act, States have the 
flexibility they need to improve education outcomes for all 
kids while at the same time maintaining strong 
accountability.''
    The Every Student Succeeds Act makes clear that the 
Department is prohibited from prescribing the indicators States 
use in their accountability systems beyond what is explicitly 
outlined in the statute.
    Dr. King, my question is what will you do to ensure your 
implementation of the law protects explicit authority of States 
to determine the weight and mix of indicators, both academic 
and non-academic indicators, that are used in their 
accountability systems?
    Mr. King. I appreciate the question. You know, as we move 
forward with implementation, I think we have a great 
opportunity for States to leverage their flexibility with 
respect to accountability systems and interventions.
    On the accountability side, I think we have an opportunity 
where States can broaden how they define an excellent education 
to make their definition more well-rounded than the narrow 
focus on English and math assessments that we saw during the No 
Child Left Behind era.
    An opportunity for States to look at students' progress. I 
mentioned this earlier, in science and social studies, arts, 
music, socioemotional learning.
    On the issue of interventions, there is an opportunity for 
States and districts to develop much more targeted 
interventions, freedom from the one-size-fits-all approach of 
No Child Left Behind.
    Where a school identifies, for example, that their English 
language learners are struggling, they should be able to tailor 
a response that is around teacher professional development and 
teacher support to work effectively with English learners, 
rather than having to use a cookie cutter solution that is 
provided external to the districts.
    I think there is tremendous opportunity. As we develop 
guidance and regulations, we will take input very seriously 
from all stakeholders, including the counsel of chief State 
School officers, superintendents, teachers, principals, civil 
rights leaders, community leaders, and ensure State and local 
flexibility within the guardrails of protecting students' civil 
rights.
    Mr. Roe. I appreciate that response. I do want to work with 
you on yesterday's question on the higher ed part of reducing 
the incredible amount of rules and regulations, and I yield 
back.
    Chairman Kline. The gentleman yields back. Mr. Grothman?
    Mr. Grothman. Thank you. Thanks again for joining us. I am 
going to talk to you a little bit about teacher evaluations, 
something I have been interested in for a long time, just 
wrapped up a book last night, ``The Smartest Kids in the 
World,'' and I would recommend it to you. You can see how 
different countries around the world deal with getting the best 
teachers.
    Nevertheless, I think one of the goals of the Every Student 
Succeeds Act is to remove or to clarify, as we have up here on 
the screen, it says ``Nothing in this act shall be construed to 
authorize or permit the Secretary to prescribe any aspect or 
parameter of a teacher, principal, or other school leader in 
the evaluation system within a State or local educational 
agency.''
    You know, I think it is a great thing that we have 50 
different States and a lot of times in those States it varies 
from district to district as to how they evaluate their 
teachers.
    In the past, prior to passing this bill, the Department of 
Education forced States into adopting prescriptive teacher 
evaluation policies in exchange for additional Federal funding 
or much needed relief from No Child Left Behind, be put into a 
straightjacket and have to do an evaluation system that the 
district did not want, and you also had the situation of all 
sorts of different evaluation systems and the ability to pick 
the best around the country for every individual district.
    What I would like to get from you today is just to clarify, 
and you see what the statute says, I want you to assure the 
committee that the department intends to follow the law, and we 
are not going to have any more actions in which you require or 
coerce States or school districts to adopt a certain teacher 
evaluation system or even specific elements within a teacher 
evaluation system, can we be confident now that those days are 
gone?
    Mr. King. Yes. We are very clear that the law puts teacher 
evaluation in the hands of States and districts, and I think we 
have an opportunity with the new law for a reset in the 
conversation about teacher evaluation.
    I do think we have technology over the last decade where 
teachers in many places have felt attacked or blamed by the 
discussions around evaluation, and now States and districts can 
use that flexibility in smart ways.
    It is important you referenced Amanda Ripley's book. I 
think there are very interesting opportunities for States to 
leverage their flexibility now and to focus on teacher 
leadership in the way that some of our international 
competitors do, to focus on strengthening teacher preparation 
in some of the ways our international competitors do, to create 
mentoring and induction support in some of the ways our 
international competitors do.
    So, I think the new law gives us an opportunity for States 
to reset their approach on issues of teacher quality, certainly 
it is important that the law maintains the focus on equitable 
access to effective teaching, and States are doing good work on 
their equity plans that we will continue to support.
    Mr. Grothman. Just to understand, you are not too much in 
the conversation?
    Mr. King. Right. I understand our role is to try to support 
States, certainly the Teacher and School Leader Incentive Fund, 
for example, is an opportunity to support districts in their 
work in lifting up teacher leadership and support. We are clear 
that the law makes teacher evaluation a project for States and 
districts.
    Mr. Grothman. Thanks very much. I yield the remainder of my 
time.
    Chairman Kline. I thank the gentleman, and he yields back. 
Mr. Messer?
    Mr. Messer. Thank you, Mr. Chairman. Thank you, Dr. King. I 
admire your stamina. I know you have had a lot going on in the 
last couple of days, and I think this may be the caboose of 
your questioning, so thank you for your patience, and thank you 
for the gracious way you have conducted yourself.
    Yesterday, we had an opportunity to talk a little bit about 
some of the challenges with Indiana's charter school funding. 
Today, I want to talk to you a little more about the broader 
opportunities that come with educational choice for kids in 
America.
    We have all either seen or heard accounts of how empowering 
parents gives better opportunities for not only kids but the 
communities that they live in as well.
    Just a few weeks ago, we had a remarkable testimony from a 
young woman, Denisha Merriweather, a graduate student of the 
University of South Florida. She came to the committee and gave 
a personal account of how school choice and the opportunities 
associated with that have changed her life.
    She began by painting a picture of what school was like for 
her before she had a change in educational opportunity, and I 
will quote from her, she said ``My grades were bad and I did 
not understand most of my school work. I got picked on by other 
kids because I was doing so poorly in school, and I kept 
getting into fights, I failed third grade, not once but twice.
    All too well, it seemed my future was mapped out for me. I 
would follow in the footsteps of my mother, uncle, and brother, 
who all dropped out of school. I was unmotivated, and learning 
became a nightmare, a punishment for being a child.''
    Ms. Merriweather went on to talk about how local school 
choice options allowed her to transfer into a better school, 
and as a result of that, her life took a dramatic turn. Not 
only did she graduate from high school, she went on to college, 
and now she is pursuing a Master's degree.
    These are stories we have all heard before. I have visited 
the BASIS School in Washington, D.C. where kids from every zip 
code in Washington, D.C. are obtaining STEM level training and 
having incredible success in their life. When I met with those 
young people, the one question they asked me is why does not 
every kid in America have the same kinds of opportunities that 
I have.
    Today, over 44 States provide school choice options, and as 
you know, the Every Student Succeeds Act includes provisions 
that support and encourage educational choice and opportunity 
for kids.
    That is really my question for you, Dr. King, how will the 
department ensure that these provisions, access to charter 
schools, magnet schools, and direct student services--how will 
you make sure that the intent of Congress in that act is 
implemented, so that we make sure that kids' futures are not 
determined by their zip codes, and every kid has an opportunity 
to succeed?
    Mr. King. We have several great opportunities. I think the 
charter school program and the CMO program are both helping to 
drive the creation of high performing charters, and at the same 
time, improve the quality of charter authorizing, because as 
you know, the promise of school choice is undermined when we 
have charters that are chronically underperforming and 
authorizers fail to act.
    Mr. Messer. The same with public schools, we have to hold 
public schools accountable as well.
    Mr. King. That is exactly right. I think there is 
opportunity with those two charter programs. There is 
opportunity with the magnet program. The President's budget 
proposes an increase in the magnet program.
    I think it is an opportunity for magnet programs to learn 
from evidence about the kinds of magnets that are driving 
better outcomes and good examples nationally like the work that 
is happening in Hartford, Connecticut, for example, creating 
magnets that actually draw tremendous student interest from 
across district lines with quality arts programs, for example, 
that are appealing or our STEM programs that are appealing to 
parents.
    The President has in the budget a proposal called 
``Stronger Together,'' which I mentioned yesterday, which 
focuses on socioeconomic integration of schools, again creating 
opportunities for students to go to schools that are created 
across district lines or within a district, to intentionally 
serve a diverse population and offer opportunities.
    Mr. Messer. Thank you. I know we are at the hard stop. I 
would just say this, I appreciate your testimony. Frankly, 
while I would like to see us do much more, I appreciate your 
predecessor's commitment to making sure that at least in the 
space of charter schools that we were partners in making sure 
kids have better opportunities. I hope that work will continue 
with you.
    Mr. King. Absolutely.
    Chairman Kline. The gentleman's time has expired. All 
questions have been asked and answered, I believe. Let me turn 
to Mr. Scott for his closing remarks.
    Mr. Scott. Thank you, Mr. Chairman. I thank Dr. King for 
testifying today, and I want to thank you for holding the 
hearing.
    The committee is continuing to fulfill its responsibility 
to perform oversight on this new law. This ongoing process will 
expose problems, either overreach by the department or failure 
of the department to enforce the provisions of the law.
    Let's be clear that States and localities were given the 
authority and flexibility but they were not given a waiver. 
They are required by law to assess the performance and 
graduation rates of students, and to take effective action to 
narrow any achievement gaps. They have all kinds of flexibility 
on how to do it, but the law requires them to actually do it.
    Let's not forget the intent of the Elementary and Secondary 
Education Act when it was passed in 1965. It was to fulfill the 
finding in Brown v. Board of Education that found it is 
doubtful that any child may reasonably be expected to succeed 
in life if denied the opportunity of an education, and such an 
opportunity is a right which must be made available to all on 
equal terms.
    The ESEA addressed that by providing funding for education 
for lower income children with particular focus on areas of 
high concentration of poverty, and later under No Child Left 
Behind, we added the responsibility that action had to be taken 
to address achievement gaps.
    The Every Student Succeeds Act improves on No Child Left 
Behind and builds on the progress we have made since Brown in 
1954 and ESEA in 1965.
    We look forward to working with Dr. King and the Department 
of Education to ensure that the opportunity of an education is 
in fact made available to all of our Nation's children on equal 
terms, and I yield back.
    Chairman Kline. The gentleman yields back. I thank the 
gentleman. I want to make just a couple of really quick points. 
I know you have to leave, and we are very, very grateful for 
the time that you have spent with us.
    At several points in the hearing today, some of my 
colleagues on the Democratic side of the aisle, and I think 
even perhaps you, Dr. King, have argued that nothing in ESSA 
prevents the Secretary from implementing the law.
    Let me assure you that on this side of the aisle, we 
understand that is part of your job, to implement this law, but 
the language included in the law now includes explicit 
instructions about that implementation. These instructions 
include unprecedented restrictions on the Secretary's 
authority. That was done on purpose.
    In answering Mr. Byrne's question earlier, Dr. King, you 
stated that you thought the provision in Section 1111(c) was 
unclear, but the plain reading of the text says ``Consistently 
underperforming as determined by the States,'' not as 
determined by the U.S. Department of Education or determined by 
the Secretary of Education, the Acting Secretary of Education, 
as determined by the States.
    So, the question is not does the Secretary have authority 
to implement the law. Of course, he does, but that 
implementation must be consistent with the law, which you have 
said repeatedly that you understand and intend to do that.
    You cannot regulate contrary to the law, and you cannot 
rewrite the law, the regulation. You can implement the law as 
written.
    We wish you good luck in doing that, rest assured we will 
be watching every minute as this goes. We would like to work 
with you and your staff, and have every intention of doing 
that, and speaking of good luck, good luck this afternoon.
    Mr. King. Thank you.
    Chairman Kline. There being no further business, the 
committee stands adjourned.
    [Additional submissions by Mr. Scott follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
    [Whereupon, at 12:33 p.m., the committee was adjourned.]

                         [<all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
